<html>
<title> - CHALLENGES AND SOLUTIONS FOR PROTECTING OUR CHILDREN FROM VIOLENCE AND EXPLOITATION IN THE 21ST CENTURY</title>
<body><pre>[Senate Hearing 110-607]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-607
 
CHALLENGES AND SOLUTIONS FOR PROTECTING OUR CHILDREN FROM VIOLENCE AND 
                    EXPLOITATION IN THE 21ST CENTURY

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON CRIME AND DRUGS

                                 of the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 16, 2008

                               __________

                          Serial No. J-110-85

                               __________

         Printed for the use of the Committee on the Judiciary




                     U.S. GOVERNMENT PRINTING OFFICE
44-986 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                       COMMITTEE ON THE JUDICIARY

                  PATRICK J. LEAHY, Vermont, Chairman
EDWARD M. KENNEDY, Massachusetts     ARLEN SPECTER, Pennsylvania
JOSEPH R. BIDEN, Jr., Delaware       ORRIN G. HATCH, Utah
HERB KOHL, Wisconsin                 CHARLES E. GRASSLEY, Iowa
DIANNE FEINSTEIN, California         JON KYL, Arizona
RUSSELL D. FEINGOLD, Wisconsin       JEFF SESSIONS, Alabama
CHARLES E. SCHUMER, New York         LINDSEY O. GRAHAM, South Carolina
RICHARD J. DURBIN, Illinois          JOHN CORNYN, Texas
BENJAMIN L. CARDIN, Maryland         SAM BROWNBACK, Kansas
SHELDON WHITEHOUSE, Rhode Island     TOM COBURN, Oklahoma
            Bruce A. Cohen, Chief Counsel and Staff Director
           Stephanie A. Middleton, Republican Staff Director
              Nicholas A. Rossi, Republican Chief Counsel
                                 ------                                

                    Subcommittee on Crime and Drugs

                JOSEPH R. BIDEN, Jr., Delaware, Chairman
EDWARD M. KENNEDY, Massachusetts     LINDSEY O. GRAHAM, South Carolina
HERB KOHL, Wisconsin                 ARLEN SPECTER, Pennsylvania
DIANNE FEINSTEIN, California         ORRIN G. HATCH, Utah
RUSSELL D. FEINGOLD, Wisconsin       CHARLES E. GRASSLEY, Iowa
CHARLES E. SCHUMER, New York         JEFF SESSIONS, Alabama
RICHARD J. DURBIN, Illinois          TOM COBURN, Oklahoma
                       Todd Hinnen, Chief Counsel
                  Walt Kuhn, Republican Chief Counsel


                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Biden, Hon. Joseph R., Jr., a U.S. Senator from the State of 
  Delaware.......................................................     1
Feinstein, Hon. Dianne, a U.S. Senator from the State of 
  California, prepared statement.................................   100
Leahy, Hon. Patrick J., a U.S. Senator from the State of Vermont, 
  prepared statement.............................................   113
Sessions, Hon. Jeff, a U.S. Senator from the State of Alabama....     5

                               WITNESSES

Collins, Michelle, Exploited Child Unit, National Center for 
  Missing and Exploited Children, Alexandria, Virginia...........    25
Hillman, Randall I., Executive Director, Alabama District 
  Attorney's Association, Montgomery, Alabama....................    23
Moses, Robert C., Lieutenant, High Technology Crimes Unit, 
  Delaware State Police, Dover, Delaware.........................    21
Scott, McGregor, U.S. Attorney, Eastern District of California, 
  Sacramento, California.........................................     7
Waters, Flint, Special Agent, Office of Criminal Investigation, 
  State of Wyoming Attorney General, Cheyenne, Wyoming...........    19
Weeks, Grier, Executive Director, National Association to Protect 
  Children, Asheville, North Carolina............................    27

                         QUESTIONS AND ANSWERS

Responses of Michelle Collins to questions submitted by Senators 
  Biden, Sessions and Coburn.....................................    41
Responses of Randy Hillman to questions submitted by Senator 
  Coburn.........................................................    54
Responses of Robert C. Moses to questions submitted by Senator 
  Coburn.........................................................    57
Responses of Flint Waters to questions submitted by Senator 
  Coburn.........................................................    61
Responses of Grier Weeks to questions submitted by Senator Coburn    65

                       SUBMISSIONS FOR THE RECORD

Boxer, Hon. Barbara, a U.S. Senator from the State of California, 
  prepared statement.............................................    75
Collins, Michelle, Exploited Child Unit, National Center for 
  Missing and Exploited Children, Alexandria, Virginia, statement 
  and attachments................................................    78
Go Daddy.com, Inc., Warren Adelman, President and Chief Operating 
  Officer, Scottsdale, Arizona, letter...........................   107
Hillman, Randall I., Executive Director, Alabama District 
  Attorney's Association, Montgomery, Alabama, statement.........   108
International Union of Police Associations, AFL-CIO, Dennis 
  Slocumb, Executive Vice President, Alexandria, Virginia, letter   112
Miami-Dade Police Department, Robert Parker, Director, Miami, 
  Florida, letter................................................   115
Moses, Robert C., Lieutenant, High Technology Crimes Unit, 
  Delaware State Police, Dover, Delaware, statement..............   116
National Association of Police Organizations, Inc., William J. 
  Johnson, Executive Director, Alexandria, Virginia, letter......   122
National Sheriffs' Association, Craig Webre, President, 
  Alexandria, Virginia, letter...................................   123
Scott, McGregor, U.S. Attorney, Eastern District of California, 
  Sacramento, California, statement..............................   124
USA Today:
    Limited Funds Hinder Child Porn Fight, article...............   133
    Software Tracks Child Porn Traffickers Online, article.......   135
U.S. Internet Service Provider Association, Christopher G. Bubb, 
  Chairman, Washington, D.C., letter.............................   138
Waters, Flint, Special Agent, Office of Criminal Investigation, 
  State of Wyoming Attorney General, Cheyenne, Wyoming, statement   139
Weeks, Grier, Executive Director, National Association to Protect 
  Children, Asheville, North Carolina, statement.................   145


CHALLENGES AND SOLUTIONS FOR PROTECTING OUR CHILDREN FROM VIOLENCE AND 
                    EXPLOITATION IN THE 21ST CENTURY

                              ----------                              


                       WEDNESDAY, APRIL 16, 2008

                                       U.S. Senate,
                           Subcommittee on Crime and Drugs,
                                Committee on the Judiciary,
                                                     Washington, DC
    The Committee met, Pursuant to notice, at 2:07 p.m., in 
room SD-226, Dirksen Senate Office Building, Hon. Joseph R. 
Biden, Jr., presiding.
    Present: Senator Sessions.

OPENING STATEMENT OF HON. JOSEPH R. BIDEN, JR., A U.S. SENATOR 
                   FROM THE STATE OF DELAWARE

    Chairman Biden. The hearing will please come to order.
    I apologize to our witnesses for the late start, and 
probably a quick interruption. We are supposed to vote at 2:15. 
The reason I was late, I was trying to find out whether that 
vote was really going to go up at 2:15. I probably wasted more 
time doing that than just coming here. But we're going to have 
to at least--we'll probably only get in an opening statement at 
this point in order to go vote and come back. So what I will 
do, as soon as I make my opening statement, assuming the vote 
goes off, with your permission, Senator, I'll take off and then 
you do yours, and we'll try to save a couple minutes that way.
    But I want to thank you all for coming here today. We're 
here to discuss one of the government's most solemn 
obligations--maybe the most solemn obligation--government has, 
and that is to protect our children, and particularly protect 
them from violence and exploitation.
    We've taken many important steps here in Congress toward 
protecting our children and I'm happy to say that my colleague 
and I, and others, have been deeply involved in trying to 
figure out how to make it safer for a long time.
    But events, and technology, in this case, also have moved, 
in many cases, more rapidly than we have been able to move. The 
most important among the protections that we have created is 
the National Center for Missing and Exploited Children. 
Unbelievably, it was 24 years ago when Senator--God rest his 
soul--Paul Simon and I worked to create the National Center for 
Missing and Exploited Children.
    Our vision was that the center would become a 24-hour 
resource for law enforcement and families and a national hope 
for information on missing and exploited children. Needless to 
say, the National Center has exceeded our vision, and the cyber 
tip line has become an indispensable resource for law 
enforcement. So, I'm anxious to hear--we're both anxious to 
hear--from the National Center.
    Just last year we passed the Adam Walsh Child Protection 
Act, which creates a national sex offender registry system so 
that concerned families and local law enforcement officials 
know when a convicted sex offender moves into their 
neighborhood or jurisdiction and are able to take appropriate 
actions to protect the children in that area.
    Despite these efforts, child pornography and exploitation 
remains a growing and complex problem. According to recent 
studies, online child pornography has increased by 1,500 
percent just since 1997. There are over 10,000 child 
pornography web sites worldwide, and child pornography has 
become a $3 billion industry.
    We are not talking about morphed images of adults posing as 
under-aged teens, we are talking about sadistic, violent movies 
depicting actual abuse. I say to my friend, I had an 
opportunity which I almost wish I didn't have, to witness some 
of this in my office just a little while ago, as one of our 
witnesses brought in material to show me just what's going on. 
I don't know about my colleague--as a former Federal prosecutor 
he's prosecuted many cases--but lots of times we talk about 
these concerns and I've never seen them.
    I could not watch, quite frankly, the one depiction, which 
if you go on the Internet, you'll see in a minute, on a 
computer, someone under 8 years old. I just watched the very 
beginning of it, before the abuse started and I couldn't watch 
it. Then I said, well, give me a contrast. Show me someone who 
is a teenager that's 14 or 15 years old. That was, in a sense, 
standard pornography and you couldn't tell whether this young 
woman was 14 or 16 or 18 or 20--at least I couldn't--but the 
range of the pornography that's on these web sites is 
astounding to me, and how easily it is to be accessed.
    I am revealing an ignorance here. I'm revealing what I 
think I know, like you Jeff, an awful lot about violent crime 
in America, but this is an area that I didn't realize how 
incredibly easily accessible it is with so many, many, many, 
many different sites. Again, I want to make it clear. We're not 
talking about morphed images or adults posing as under-aged 
teens.
    According to the 2006 study by the National Center for 
Missing and Exploited Children, 83 percent of arrested child 
pornography possessors had images of children between the ages 
of 6 and 12; 39 percent of the possessors had images of 
children between 3 and 5. And I'm not just talking about an 
image of a naked child, 3 to 5, in a provocative position. I'm 
talking about sex acts being performed on a child 3 to 5 years 
old. Not all of those were that. But 19 percent of the 
possessors had images of infants and toddlers under the age of 
3, and 21 percent depicted violence such as bondage, rape, or 
torture.
    The problem continues to grow. Last week, the National 
Center for Missing and Exploited Children handled its 
580,000th--over half a million, 580,000th--reported child 
exploitation. The Peer Precision Program that Special Agent 
Waters will demonstrate later has identified over 600,000 
individual computers in America, 600,000 computer serial 
numbers connected to trafficking of child pornography over a 
peer-to-peer witness, which all of our witnesses understand 
what that means, but I'm not sure the vast majority of 
Americans understand what that means and how easily accessible 
this is.
    Ladies and gentlemen, the bottom line is, we're not making 
much of a dent in this problem. Due to lack of resources, we 
are investigating less than 2 percent of the known cases of 
child pornography trafficking. Again, we are only investigating 
2 percent of the known child pornography traffickers.
    Now, in fairness, because I bored down on this a little bit 
earlier in my office, that 2 percent is of the 600,000, and 
some of those folks in the 600,000 exchanged these files one 
time. It may have been accidental. You don't know whether it 
was real. As you narrow this down--and there are ways that I'm 
going to be asking all the witnesses how we do it to figure out 
who the really bad guys are--it gets to be considerably less 
than that.
    I asked in the office for them to show me the number of 
people who have engaged in trading files in a 30-day period of 
over 100 times, and I think the number was 1,500 or something. 
So the thing I don't want people walking away from here today, 
is that this is such an immense problem, it's not manageable, 
such an immense problem we can't get our arms around it. We can 
get our arms around the worst aspect of this if we provide the 
resources for it.
    Due to lack of resources, though, we've not been making the 
progress that we should. What makes this even more inexcusable 
is that when we do investigate these cases we have at least a 
30 percent chance of rescuing a child from ongoing abuse. 
That's the statistic. I'm going to ask that that statistic be 
justified today, but that's the statistic that is pretty widely 
accepted in the community.
    Some studies show that there is likely even a greater 
chance of finding a local victim. In other words, when they go 
in and investigate, get a warrant, roughly 30-plus percent of 
the time you may very well find a kid that you can identify and 
physically rescue from that local issuing of that warrant and 
going in and doing a search.
    For example, a study of the National Center for Missing and 
Exploited Children found that 40 percent of child pornography 
possessors were dual offenders who sexually victimize children 
and possessed child pornography. Speaking for myself, they're 
the people we really want to nail.
    The study at the Department of Justice on Federal prisoners 
found that 85 percent of child pornography possessors had 
committed acts of sexual abuse against minors, including 
everything from inappropriate touching to rape. As you'll hear 
from Special Agent Waters, the Wyoming Attorney General's 
Office has found that, based on the investigations that he's 
conducted there, a local victim in at least one-third of each 
of the cases they pursue is found.
    Don't get me wrong. The witnesses that we are going to hear 
from today and the thousands of Federal, State, and local 
investigators and prosecutors are out there working tirelessly 
to combat this problem. This is in no way to implicate the lack 
of resolve on the part of Federal or State law enforcement 
officers. But part of this is a learning curve. Part of this 
is, things are changing rapidly. Part of this is a lack of 
resources. So in my view, we've not dedicated enough Federal 
agents to this problem and we've not provided enough support 
for local law enforcement agencies in order for them to better 
be able to do their job.
    In addition to restoring cuts to the COPS program and the 
Byrne Assistance Grants, we should pass the Combatting Child 
Exploitation Act, which authorizes $1.05 billion over the next 
8 years to help combat this growing problem.
    Under this bill we will triple funding for local Internet 
Crime Against Children Task Forces, to provide more resources 
to the FBI, the Immigration and Customs Enforcement Agency, and 
regional computer forensic labs.
    Before I close, I'd like to show you how pervasive this 
problem has become. I asked Mr. Waters to run a quick check of 
all the computers that are currently, as we speak, trafficking 
in child pornography, which has been scrolling on the screen 
during my remarks. Now, Mr. Waters, if you would show us the 
interactive map showing the illegal activity over the last 24 
hours.
    [Whereupon, the map was shown.]
    Chairman Biden. Each one of those red dots--correct me if 
I'm wrong, Mr. Waters--indicates a computer in the United 
States of America that in fact is located in the jurisdiction 
you see, that in the last 24 hours has engaged in the illegal 
activity of transferring over the Internet, from one computer 
to another, child pornography. As you can see, it is a 
pervasive problem. It's right out in the open for any trained 
officer to see. With enough resources, we could take action on 
a lot of that.
    Now, again, before I turn this over to Senator Sessions, 
the one thing I always worry about, having dealt with, as my 
colleague has, criminal justice issues for my entire career as 
a Senator, is that we do not want to over-promise and we do not 
want to in any way exaggerate the problem, and we don't want to 
be in a position where what we're laying out there appears to 
be beyond the capacity of anybody to deal with.
    This does not mean that there's that many child abusers out 
there, but it does mean it's a very fertile pond to fish in 
order to find the people we most are concerned about, and that 
is the people who are exploiting these children in the most 
violent and vicious and ugly ways so that we can put them 
behind bars, we can get them out of the system.
    I now turn over the podium to my colleague, Senator 
Sessions, who has done an incredible amount of work in this 
area.

STATEMENT OF HON. JEFF SESSIONS, A U.S. SENATOR FROM THE STATE 
                           OF ALABAMA

    Senator Sessions. Thank you, Mr. Chairman. Thank you for 
calling the hearing and for your excellent summary of the 
situation we find ourselves in today.
    We are really dealing with modern challenges to child 
sexual exploitation and abuse. I am distressed by the dramatic 
growth of the criminal networks that traffic in child 
pornography over the Internet. I am also concerned by 
statistics, as you've noted, that suggest that Federal, State, 
and local law enforcement is overwhelmed by this rise in 
exploitation. There is no doubt that the Federal Government has 
an important role to play in combatting child exploitation, 
which often involves interstate crimes, but many cases are 
fundamentally State crimes and should remain so.
    Although the scope of the problem and the havoc it wreaks 
in the lives of abused children and their parents is extremely 
distressing, I am encouraged by the fact that in the past we 
have addressed this crime successfully, and we can do so again.
    I was a Federal prosecutor when President Reagan undertook 
an aggressive effort on child pornography cases. It was one of 
the most successful initiatives ever. It was greatly enhanced 
by the Supreme Court's ruling at the time in New York v. 
Ferber, that held that possession of child pornography is 
effectively a crime, per se, which removed the prosecutor's 
burden of establishing community standards and other 
complexities of pornography cases.
    So possession cases were, therefore, much easier to 
prosecute. The Federal Government had only to show that the 
defendant knowingly possessed a sexually explicit image of a 
minor that had been shipped in interstate commerce. This was 
before the real explosion of the Internet. Modern distribution 
networks over the Internet present law enforcement with serious 
challenges, as one pedophile trades in child abuse photographs 
with another pedophile, all under the cover of sometimes 
computer firewalls, sometimes sent through the mail once they 
communicate with one another and identify one another. They 
shift addresses repeatedly.
    I would note that when we started, really Congress passed 
the law, the child pornography law, and I'm sure you were 
probably part of passing it. But what happened was, we 
eliminated child pornography from almost any bookstore. You 
could go in bookstores in America, in newsstands, and find this 
kind of material. After the law passed, child pornography 
disappeared. There were no more cases to make. But it went 
underground, I think, is the situation.
    So I am pleased to have Randy Hillman, the executive 
director of the Alabama District Attorney's Association here 
today to tell us what role his high-tech operation, the 
National Computer Forensic Center in Hoover, Alabama, might 
play in this critical effort, because it is an Internet-driven 
problem today.
    I commend Mr. Hillman for his dedication to improving the 
technological skills of State and local law enforcement 
officers, prosecutors, and judges, and I look forward to 
hearing his testimony. I am also encouraged by technological 
advances in the investigative techniques used in some child 
pornography cases. These techniques allow law enforcement 
officers to target arrests on the most serious distributors of 
child pornography. This is an enormous development. I would 
note, it was a State official that developed this technology, 
Wyoming Special Agent Flint Waters, as you've indicated, Mr. 
Chairman. It further highlights the frontline role that State 
and local law enforcement must play in this effort.
    I prosecuted a number of child pornography cases when I was 
a U.S. Attorney, and in virtually every one--more than the one-
third, Senator--in virtually every case the defendant had a 
history of actually molesting children. In fact, I remember one 
of the cases. After a period of years, there appeared to be no 
evidence of that, I was told. I said, why don't you inquire a 
little further. I'm just curious. So we discovered that a 
sister, 25 years before, had admitted that the defendant had 
abused her, a younger sister. Recent statistics suggest that 
about one-third of these cases involve abuse of children, but I 
think it's bigger than that, really.
    Important work has been done on the issue and I am proud to 
have served on the Adam Walsh Conference Committee and to be 
present at the White House when that important piece of 
legislation was signed into law. That Act imposed tough 
penalties for the most serious crimes against children, such as 
sex trafficking of children and child prostitution. The Act 
also made it harder for sexual predators to reach children on 
the Internet by authorizing the regional Internet Crimes 
Against Children Task Forces, which provide funding and 
training to State and local law enforcement officers who combat 
illegal exploitation crimes on the Internet.
    So, in conclusion, I believe, Mr. Chairman, that you are 
correct. We are facing a very real problem, that it is damaging 
the lives of young children far more than we like to admit. As 
we will hear today, I think we can all agree we need to give it 
a higher priority in our law enforcement initiative.
    Thank you.
    Chairman Biden. Thank you very much, Senator.
    We have about 4 minutes left in which to make this vote, to 
go over and vote, which means we will be put in a recess in a 
moment for about 10 to 12 minutes, is how long before we get 
back. But let me just announce the order in which we'll 
proceed.
    Our first panel will be U.S. Attorney McGregor ``Greg'' 
Scott of the Eastern District of California. The second panel 
will be Special Agent Flint Waters of the Wyoming Attorney 
General's Office; Lieutenant Bob Moses, the High Technology 
Crimes Unit of the Delaware State Police; Randy Hillman, who's 
been mentioned earlier, of the Alabama District Attorney's 
Association; Michelle Collins, who is from the National Center 
for Missing and Exploited Children; and Grier Weeks, the 
National Association to Protect Children. They will be on one 
panel as well. So we have two panels here. First, when we come 
back, we'll swear in the U.S. Attorney from the Eastern 
District of California.
    We're going to recess from somewhere between 8 to 12 
minutes, as long as it takes to get there to vote and get back.
    [Whereupon, at 2:28 p.m. the hearing was recessed.]
    AFTER RECESS [2:47 p.m.]
    Chairman Biden. The hearing will resume.
    We appreciate the indulgence of the witnesses.
    Our first witness, as I indicated, is the U.S. Attorney 
from the Eastern District of California. He's served in the 
post since 1993. He's a graduate of Santa Clara University--my 
grandfather's university--in California and the Hastings 
College of Law.
    Prior to his appointment as U.S. Attorney, he served as the 
District Attorney for Shasta County, California. Mr. Scott is a 
Lieutenant Colonel in the United States Army Reserve, with 22 
years service as an infantry officer. He commanded an infantry 
company on the streets of Los Angeles during the riots of 1992, 
and he's a graduate of the Command and General Staff College.
    Mr. Scott, welcome. We appreciate your making the effort to 
be here. The floor is yours.

 STATEMENT OF MCGREGOR SCOTT, UNITED STATES ATTORNEY, EASTERN 
         DISTRICT OF CALIFORNIA, SACRAMENTO, CALIFORNIA

    Mr. Scott. Thank you very much, Chairman Biden and Ranking 
Member Sessions. I want to thank you for this opportunity to 
present the perspective of the Department of Justice on this 
most vital issue, the protection of our children. I want to 
thank you for convening this hearing today to bring light to 
this very, very significant issue.
    The Internet is one of the great advances of our age, an 
unprecedented source of information and ideas. But the Internet 
can also be a dark and sinister place, as those who mean our 
children ill use the anonymity it provides to advance their 
horrific objectives.
    Let there be no doubt that these are not, to use the common 
phrase, ``just pictures'', as the Senator eloquently set out in 
his opening statement. Each photograph or video literally 
represents the sexual assault of a child and nothing less. The 
evidence grows every day of something we in law enforcement 
have known intuitively for a long time: the odds are 
overwhelming that a person who deals in child pornography is 
also a child molester.
    It is not my intent to speak of uncomfortable things, but 
we need to be clear on what exactly it is that we're talking 
about here today. Let me reference a few cases from my own 
district to make this point. We prosecuted a main who live-
streamed onto the Internet for viewing by others a video of 
himself masturbating over, and ejaculating onto, his 6-month-
old daughter.
    We prosecuted a psychiatrist from Saudi Arabia who 
communicated via the Internet with what he thought was the 
mother of a two-and-a-half-year-old girl. He traveled to this 
country for the purpose of having sexual relations with that 
little girl, but instead found police waiting for him because 
that mother was instead an undercover officer.
    We prosecuted a fourth grade teacher who regularly had his 
daughter's friends over for sleepovers. He would drug the 
girls, molest them, and record the events, which he kept on his 
home computer.
    Faced with this onslaught of crimes against our children, 
the question becomes: what are we doing about it? In May of 
2006, the Department of Justice launched Project Safe 
Childhood, a nationwide effort to marshall all our resources--
Federal, State, local, and private sector--to protect our 
children.
    A great strength of Project Safe Childhood is that a broad 
strategic vision has been set at the department level, with 
each U.S. Attorney tasked to develop an operational plan, in 
consultation with all our partners, as to what works best in 
his or her district.
    Let me be clear: our partnerships with State and local law 
enforcement in general, and the Internet Crimes Against 
Children Task Forces in particular, are the engines which drive 
these operational plans.
    Under Project Safe Childhood, we have two primary tasks: to 
prosecute and to educate. We are doing very well in both these 
areas. In the first full year of Project Safe Childhood, 
Federal prosecutions increased by 28 percent. In addition, U.S. 
Attorneys have sponsored scores of town hall meetings and 
school forums, and the department has sponsored public safety 
announcements all designed to arm parents and children with the 
tools they need to guard against online predators. The bottom 
line is that Project Safe Childhood provides a centralized 
strategic aim and a decentralized operational component for the 
department and all of our allies on this issue.
    The Department of Justice fully welcomes an embraces the 
work of our many partners. As a former county District 
Attorney, it is my firm view that State and local law 
enforcement are absolutely crucial partners for us. That is why 
the department funds the Internet Crimes Against Children Task 
Forces across the Nation. In the past 5 years, the number of 
ICACs has been very nearly tripled, from 20 to 59. In fiscal 
year 2007, the department increased the funding for ICACs from 
nearly $15 million to $25 million. Today, more than 1,800 local 
law enforcement agencies are members of, or affiliated with, 
ICACs.
    The Criminal Division's Child Exploitation and Obscenity 
Section is also critical, providing prosecution and computer 
forensics assistance to the field. CEOS, as it is known, 
provides technical assistance, legislative input, and 
prosecutorial aid on issues and cases involving child 
exploitation and they are an integral part of what we do.
    Computer forensics and the capacity to deal with all of 
these cases is also a very crucial issue. Nearly 2 years ago, 
the Deputy Attorney General formed a Computer Forensics Backlog 
Working Group within the department, and I served as the U.S. 
Attorney's representative on that group. That group has worked 
long and hard with the FBI to find better ways to deal with the 
exploding caseload generated by Project Safe Childhood. Earlier 
this year in February, the Deputy Attorney General announced a 
series of steps the FBI will undertake to increase its computer 
forensics capabilities for child exploitation cases.
    In summary, the Department of Justice understands and fully 
appreciates the significance of this issue. We now have in 
place a strategic plan at the department level, with 
operational plans in each district. We commend our allies for 
what they do and embrace them as full partners in this fight. 
We are grateful for the opportunity to work with you and your 
staff on this issue. I thank you for this time and I'd be happy 
to answer any questions that you may have.
    [The prepared statement of Mr. Scott appears as a 
submission for the record.]
    Chairman Biden. Well, again, thank you for being here and 
thank you for the good work that you have done.
    You referenced Project Safe Childhood.
    Mr. Scott. Yes, sir.
    Chairman Biden. I don't dispute for a moment the fact that 
prosecutions have increased over recent years, and I applaud 
the department for that effort, especially as I still think you 
are short-handed. The Attorney General keeps telling me you 
don't need a lot more people, but I think you do. But that's an 
ongoing little battle we have.
    What I've been a little more concerned about is the notion 
of what is the overall strategy for child exploitation 
prevention across the administration, so I'd like to ask you a 
couple of questions. If this goes beyond your brief, then I 
understand, and just let me know, OK?
    Mr. Scott. I appreciate that, Senator. Thank you.
    Chairman Biden. Has there been any distribution of 
resources made available by the Congress to the Justice 
Department for hires of U.S. Attorneys because of the increased 
workload in various jurisdictions, including your own?
    Mr. Scott. Yes. In fact, in this present budget year there 
are 45 new Assistant U.S. Attorney positions, which are full-
time employee positions, which will be allocated in the U.S. 
Attorney's Offices, and that process is fully engaged right 
now. It's essentially a competitive process, where each 
district submits a proposal as to why that district should 
receive a position. In addition to that, there were 
approximately 30 positions, I believe, in last year's budget, 
and perhaps the year before that, likewise, that were divvied 
out to the U.S. Attorney's Office. So, approximately 75 over 
the last two to 3 years have been allocated to the U.S. 
Attorney's Offices.
    Chairman Biden. Got you.
    Now, can you tell me a little more about--Senator Sessions 
and I, like you, have been doing this a long time.
    Mr. Scott. Yes, sir.
    Chairman Biden. Senator Sessions--I have a longer history, 
he has a broader experience.
    Senator Sessions. I had to work hard using the laws you 
passed.
    Chairman Biden. That is right.
    Senator Sessions. As a matter of fact, when I was a U.S. 
Attorney, this Senate passed some great laws that really 
enhanced law enforcement. I'm glad that you have continued to 
show that interest.
    Chairman Biden. I am not being--and the Senator is not 
implying this--either solicitous or in any way trying to 
exaggerate the involvement, but let me just talk to you like 
the three of us were in a room together, because we know the 
area relatively well from slightly different perspectives, but 
pretty broadly.
    One of the things that happens when you're talking about 
allocation of resources, intra- and interjurisdictional, is 
there is competition. We get these great ideas up here about 
how we're going to pass a piece of legislation, setting up task 
forces, and we're going to have State, local, Federal officials 
working together--and by the way, some of them work incredibly 
well. But could you talk to us a little bit more about how many 
additional resources, department-wide, have been allocated for 
activities under the Project Safe Childhood? In other words, 
how do you allocate those moneys? Talk to us about what you 
focus on and who you cooperate with in the focus.
    So in a way--excuse me for saying this--that your mom and 
my mom--I'm sure your mom is as well, my mom is a very 
intelligent woman and very well-informed--so that the average 
person, our moms, could understand what we're talking about. 
Not in Senate-speak or in Justice Department-speak. I mean, 
talk to us about how you spend the money.
    Mr. Scott. And just so I can be clear, Senator, that is in 
terms of my own district, how we leverage the resources that we 
have?
    Chairman Biden. Yes. Or if you know, speaking for the 
department, how the department is allocating these resources. 
Maybe that is not your--although you're representing the 
department, that may be beyond your brief, and I would ask for 
the department, in writing, to tell me, of all the Project Safe 
Childhood dollars, how have they allocated them? That tells us 
what the priorities are, what you think the best investment of 
the dollar is in terms of dealing with making children safer. 
But maybe you can talk to me about your district.
    Mr. Scott. Well, I'll try to touch on--
    Chairman Biden. Either way.
    Mr. Scott. I can speak in very general terms about the 
department. I cannot give you line-for-line dollar amounts, but 
I can tell you sort of general subjects.
    Chairman Biden. Right.
    Mr. Scott. The FBI clearly has a cyber division and has 
some focused resources on this. They have a stand-alone unit 
right outside of the District here in Northern Virginia that 
works on these issues, so that's part of it. Another part is, 
within the department, the grant program, through OJJDP, 
allocates money to State and locals. Within the department, the 
department ponied up, I think, in excess of $11 million out of 
its own pocket last year for more money to create 13 additional 
ICAC task forces around the Nation, to include a second one in 
my district in Fresno. We already had one in Sacramento.
    So in addition to that, I know that the Deputy Attorney 
General's Office has staff folks who are working from sort of 
an overview perspective on this thing. So that's the 
department. I can tell you that Immigration & Customs 
Enforcement also works on this issue. The Postal Service also 
works on this issue.
    So how we make it work back in Sacramento, California, we 
have co-located under one roof the FBI cyber division, the ICAC 
that we have, and then there's a third entity, which is a 
State-funded high-tech task force which also works on these 
cases. So we've got all those folks under one roof working 
collaboratively together.
    And then we have within my office a dedicated Project Safe 
Childhood coordinator, but a number of other Assistant U.S. 
Attorneys who also handle a certain number of those cases each 
year. That, in a general sense, is how we're allocated in terms 
of going after this thing.
    Chairman Biden. I yield to my colleague.
    Senator Sessions. Just a few quick questions, if you know 
the answer to this. We're seeing a lot more indications of 
child abuse and child pornography on the Internet. Do you think 
that's because we're more adept at identifying it and they're 
using the Internet more, or do you think for some reason 
there's more abuse and more abusers out there, and is there any 
science to back that up?
    Mr. Scott. I'm going to rely on what I see rather than any 
scientific studies that I've read in trying to answer that 
question, Senator. I think common sense tells me that, with the 
proliferation of child pornography that's taken place over the 
last 10 or 15 years, those who view this stuff have sort of 
grown and they've reached the level of where it's not enough. 
This picture, while last year it was enough for them to reach 
satisfaction, this year it's not, so it's got to be something 
even more egregious to create the instincts and desires that 
are generated by child pornography.
    I think that's a big part of the problem, is that it's so 
widespread now within these particular areas and among these 
particular groups of people that there's a constant demand for 
more and a constant demand for more egregious pictures and 
videos. I think that's the problem.
    Senator Sessions. To carry through, that would indicate 
that the more people have access to more and more violent and 
exacerbated cases of child abuse on the Internet the more 
likely they are to abuse children themselves. Is there any 
study on that, to your knowledge? I know there's a connection. 
I've seen the connection. I know that the average person is not 
interested in seeing child pornography. It's a certain mental 
problem that causes people to be attracted to that. Do you know 
the answer to that, if you know? Maybe some of our other 
panelists would.
    Mr. Scott. I'll approach that from two perspectives. One is 
the study that Senator Biden referenced, which was done by the 
Board of Prisons, by Dr. Hernandez down at Buttner, which 
determined that something like 85 or 87 percent of those 
incarcerated for pornography possession only--in other words, 
no physical crime, just possession of child pornography--
admitted having molested children, and on average the number 
was--
    Senator Sessions. We've been using the number of one-third, 
and that is 85 percent, which is more consistent with my 
personal experience, which was anecdotal, I'll admit.
    Mr. Scott. Yes. So beyond that study, what I would 
reference is looking at the cases that we are handling, that we 
are processing that we see. I'm hesitant to put a percentage 
number to it, but it's an overwhelming percentage of those 
cases that involve some kind molestation. And a very typical 
case for us to prosecute is one that starts out as a sexual 
assault or child molestation investigation by a sheriff's 
department or a D.A.'s office, and they'll do a search warrant 
and search the suspect's home computer, and guess what? There's 
child pornography on the home computer. That is a common 
pattern that we see on a regular basis.
    Senator Sessions. Now, you discussed, in response to 
Senator Biden's questions about the difficulties of the 
entities involved in task forces. I agree with Senator Biden 
that they can be fabulously effective. When you co-locate, 
where they are all together at one time, they can just bring to 
bear all kinds of capabilities that would not exist otherwise 
and be highly successful.
    Though we want as much involvement from local police as we 
can, explain to us why a local policeman, through 
jurisdictional and State lines, has difficulties prosecuting 
effectively, many times, these kind of cases.
    Mr. Scott. That's a great question. It's due to the very 
nature of the Internet itself. We may have one suspect in 
Fresno, we may have another in Reading. There may be one in 
Montgomery. I mean, literally, because of the Internet there 
are no limitations on jurisdictional issues because you push a 
button and that image can go anywhere in the world in an 
instant. So what we are able to bring, it's really--
    Senator Sessions. Well, first of all, the police officer in 
Sacramento can't issue a subpoena for a computer in Montgomery, 
Alabama.
    Mr. Scott. Yes. So that's why I think these task forces are 
so highly effective, is that you've got the manpower and the 
commitment and the horsepower from the locals, combined with 
the Federal jurisdictional resources, to get a search warrant 
to go look at several computers across the country 
simultaneously under the Federal authority, and then to have 
the Federal prosecutorial aspect as well where we can prosecute 
people from all over the country--all over the world, for that 
matter--if we have venue in our district, which, with the 
Internet, is not a very difficult thing to come up with these 
days.
    Senator Sessions. And when you have a local prosecutor in 
California, a State prosecutor, they have difficulty issuing 
subpoenas to people in Montgomery or other places, but the 
Federal Government can do that quite readily. So, there is an 
important role for the Federal Government in these cases.
    Thank you.
    Chairman Biden. With your permission, I'd like to pursue 
two other points off of what the Senator said. One of the 
things that I've been thinking of, as one of the authors of 
this legislation where we're trying to increase the money 
available, is that I had met with one of the State Attorneys 
General who told me about Mr. Waters out in Wyoming.
    His unit out there has developed--which we're going to hear 
a little bit about--the software to be able to identify by, 
literally, the click of a mouse--I watched it--all the 
transactions taking place where they are trading pornographic 
files, children's pornographic files.
    I asked him, for example, to click up Delaware, asked him 
to click up Pennsylvania, asked him to click up--I forget where 
else. In Pennsylvania, just in the last 30 days, there is one 
person. I guess I'm not supposed to say where. We don't know 
exactly where this person lives, but we know the town he lives 
in, the zip code, if you will. You can go--as you know better 
than I do--with an identification, to Comcast, if it's Comcast, 
and you can get the name and address of that person. It lists 
all the files that he has transferred. I think the number was 
2,700 in the last 30 days.
    I asked him to go to Delaware and list every bit of trading 
on this particular Internet site that took place in the State 
of Delaware. There were 40 individuals, 40 computers that 
traded material. The most frequently traded was, I think, 48 
times in 30 days. There are roughly 40 who have done it 10 or 
more times.
    I asked what the experience has been in Wyoming, and the 
studies that I have read and my staff has made available to me, 
and there seems to be the ability, without being able to 
scientifically prove it, that just through simple common sense 
if you identify someone who is trading large numbers of these 
files, you can read the title of the files. I actually viewed 
parts of several of them. It is pretty easy to pick out the 
person engaged in either transmitting or downloading violent 
scenes of rape and molestation of people under the age of 8 
years of age. A lot of this material, the title will tell you. 
It's basically: watch the rape of an 8-year-old. I'm being a 
little--but we're going to show some of this, I think. We may 
or may not. I don't know whether it violates anybody's rights. 
I guess you'll tell me when we do it.
    So it seems to me there ought to be a protocol that can be 
done at a Federal level or at a local level that would really 
enhance the training tools available to local law enforcement 
officers who would be able to identify and narrow down, just by 
looking at what was traded, what was transmitted, and you'll be 
able to get a pretty good picture of the person who you want to 
get the warrant for.
    Once you get a warrant, even before you execute the 
warrant, you're able to immediately--now you have the name of 
an individual off that ID number and you're able to, from that, 
quickly check whether they have a criminal record, quickly 
check whether they're employed working with children, quickly 
determine whether or not they have been convicted of child 
molestation and the like. It seems to me, you could, through an 
office like yours or a State Attorney General's Office 
essentially assign one person to train to just go through the 
files and identify the highest value targets, because I know 
the ability to go out and look at 600,000 computers is just not 
within the realm.
    I mean, just to put this in perspective, I asked the FBI--
one of the reasons I asked you about the allocation of 
resources--and they responded to me on July 11 of--that can't 
be right. It must be 2007. It says 2008. We haven't hit July 
11, 2008. The FBI indicated they had 32 agents dedicated to 
innocent images, meaning what we're talking about, a unit that 
specializes in this area, and a total of 260 agents that have 
worked these cases.
    Now, by contrast, white collar crime, they have 2,342 
agents working white collar crime cases; health care fraud, 
430; organized crime--I'm not making a value judgment here, but 
it's just to put it in perspective--720 agents; gang-related 
crimes, 435 agents; and 260 for this area.
    So one of the problems I think we have are resources, the 
available resources that the FBI has available to them, and in 
turn you have available to you, knowing you're not FBI.
    At the same time, they estimated that there were at least 
25,000 suspects that they knew of who had engaged in commercial 
child pornography trafficking in the last 5 years. So the point 
I'm trying to make is--which you already know--the universe is 
large, the number of people, notwithstanding the fact we do a 
good job, allocated at a Federal level to that large universe 
is relatively small.
    So in addition to us--I realize this is more of a 
statement, but it ends in a question, believe it or not--
providing Federal resources, and in turn local resources 
through task forces, I was thinking maybe--and this is a 
question I'm going to ask, and I'm going to ask my friend later 
if maybe he'd consider joining me--I think we should be also 
talking about something equivalent to the COPS bill or the 
local prosecutors' legislation we've done where States can 
apply directly for resources to deal with what is able to be 
done.
    In the jurisdiction of Delaware, for example, the Attorney 
General can identify--because we have no State prosecutor, we 
have no local prosecutors--40 cases, 40 individuals, you can 
see what they've traded in, all illegal, on the Internet, that 
where they've traded in a 30-day period more than 20 times, 
putting them in a category that is fairly highly suspect, and 
then decide within that category, you don't need a warrant in 
Alabama. I'm told that, as I mentioned in my statement, a 
significant number of victims are found in the local--the 
local--execution of these warrants.
    So what I'm trying to get at is this. Would you view it as 
a help or a hindrance as a Federal prosecutor if, in fact, the 
local D.A. in your jurisdiction--I guess it's a D.A. in 
California--had additional resources in his or her account, 
meaning personnel and training, to be able to go after those 
individuals that are high-value targets that are located within 
their city limits, their town limits, et cetera? Do you 
understand what I'm trying to drive at here? What would help 
you the most?
    Mr. Scott. Yes. I think, first of all, Mr. Waters is to be 
commended for the program. It is something that all the ICACs 
in the country are using. It's a terrific resource and we're 
going to make sure we maintain that as it transfers to the RISK 
program.
    But to directly answer the question with respect to the 
local prosecutors, I think the question that has to be asked 
about that is, what is the local State law with respect to 
these crimes? By way of example in California, until very 
recently it was a misdemeanor. We couldn't get a felony. That's 
now been changed by State-wide proposition because nothing 
could be advanced through the State legislature.
    But it really depends on what that local State law is, 
because as a result of that California law, we became the only 
game in town in terms of pursuing a felony and imprisonment for 
the most egregious of offenders. So I believe in Delaware it's 
a misdemeanor as well, from what I read last night somewhere. 
But that is the fundamental problem there, is you don't want to 
load up a local D.A.'s office if they don't have the tools to 
effectively go after the real egregious offenders.
    Thank you. I have no further questions.
    Senator Sessions. So you have now another 45 AUSAs totaling 
75, which is almost one full-time position per U.S. Attorney 
Office. Frankly, would you not say, in those 32 FTEs, full-time 
equivalent, working on these cases, it seems to me the balance 
needs to be, the shift needs to be toward the FBI and the 
investigators, unless you're using an awful lot of State and 
local investigators because really you should have more 
investigators than prosecutors on most types of cases.
    How would you evaluate the balance between Federal 
investigators and Federal prosecutors?
    Mr. Scott. Well, I think quite honestly, in my experience 
the FBI does not have enough investigators dedicated to this 
particular area. And I'll be very candid with you, this is an 
issue that we've raised with the FBI on a regular basis in the 
context of the Attorney General's Advisory Committee and 
elsewhere. As a result of that shortage of FBI agents, we are 
essentially completely dependent on State and local law 
enforcement to do the investigative legwork for us on these 
cases. In my own district, ICE has been terrific. I don't mean 
to be critical of the FBI in my own district because they're 
working hard and they're bringing good cases.
    Senator Sessions. What kind of jurisdiction does ICE have?
    Mr. Scott. Essentially the same as the FBI in this 
particular area.
    Senator Sessions. That includes Alcohol, Tobacco, and 
Firearms and Customs?
    Mr. Scott. Immigration & Customs Enforcement.
    Senator Sessions. Right.
    Mr. Scott. So the ability to get search warrants, grand 
jury subpoenas, conduct search warrants across State lines or 
district lines rests with ICE as well. But you make an 
excellent point, Senator, which is that in all my years as a 
prosecutor, the number of investigators is supposed to 
outnumber the number of prosecutors. That's kind of a general 
formula, because you're always going to have more 
investigations going than you're going to have prosecutions at 
any given moment in time. There is a disparity in terms of the 
FBI resources that are allocated to this directly and the 
number of AUSAs and local prosecutors who are working on it. 
Which again brings me back to my fundamental point, which is 
that we love the locals when it comes to these kinds of 
investigations.
    Senator Sessions. Well, really it is the locals that are 
working on protecting individual children in their communities. 
With regard to that, on a fundamental Federal, State law and 
the Constitution as you understand it, isn't it true that if 
there is a local production, if there's a local child abuse, 
there may not even be a Federal crime chargeable?
    Mr. Scott. Well, that's exactly right, unless it's a 
military installation or an Indian reservation. There is no 
original Federal criminal jurisdiction for child molestation 
cases. At least in my State, the original jurisdiction rests 
with the local District Attorney's Office for physical acts of 
molestation of children.
    Senator Sessions. So a lot of people don't realize, if 
someone shoots somebody in Sacramento, or let's say, to be 
safe, picks up a local rock and kills them, that's not a 
Federal crime and cannot be prosecuted in Federal court unless 
it's related to civil rights or some Federal connection.
    Mr. Scott. In the absence of Federal land. If it's on a 
prison ground or--
    Senator Sessions. I guess what I'm saying is, you need the 
local people. These task forces, to me, are the way to 
coordinate. Is there any kind of registry--Senator Biden, I 
think you touched on it--where, within every police department 
in America, people can be designated officers with expertise in 
this area, so if you had a lead in California that ran to 
Tennessee in Knoxville, you could check the registry, and 
here's an experienced investigator who is committed to these 
kinds of things in Knoxville, Tennessee. Is that something 
that's in place now? If not, do we need it?
    Mr. Scott. No. That is, again, one of the beauties of the 
ICACs, is that they all talk to each other. So an officer who 
works in my ICAC in Sacramento, if they discover a lead in 
Knoxville, Tennessee--
    Senator Sessions. What percentage of--ICAC is what? What is 
that?
    Mr. Scott. Internet Crimes Against Children Task Force.
    Senator Sessions. But they may not have one in Knoxville.
    Mr. Scott. We have pretty much covered the country at this 
point.
    Senator Sessions. Oh, really?
    Mr. Scott. We've got 59 up and running. Every State has at 
least one. It's something that we're going to look to continue 
to grow. This really, as I said in my statement, is the engine 
that is driving the train on these investigations. So you have 
that at least indirect communication link between the ICACs. 
Above and beyond that, we've got the Federal component too, so 
you may have an FBI agent in Sacramento who can call to an FBI 
agent in Knoxville and say, we've got this lead.
    Senator Sessions. But I've found they're not always so 
interested.
    Mr. Scott. Yes, sir.
    Senator Sessions. Would you admit that based on your 
experience?
    Mr. Scott. Well, I have to say--
    Senator Sessions. An FBI agent has got his own child case 
there, and now somebody wants him to drop what he's doing and 
do something else and take up this case. It's not, oftentimes, 
as intensely important to him as to the person who asked him to 
do it.
    Mr. Scott. Well, I think that's a product of human nature. 
We like to deal with what's right in front of us as opposed to 
what maybe someone is calling us about.
    Senator Sessions. Let me quickly ask you this. You talk 
about, the ICAC task forces have trained over 10,000 officers 
in 2005, 15,000 in 2006, and 20,000 law enforcement officers in 
2007 that were trained.
    I'd like to understand a little about, what kind of 
training is this? Is this a one-day conference, a week-long 
conference? Is it hands on with computers and technology or is 
it briefing on the basic overall law, and so forth?
    Mr. Scott. Training can really span the spectrum of all the 
things you just described. There are one-day trainings, there 
are multiple day trainings. Much of it is focused on the 
concept of learning how to build and bring a case for Federal 
prosecution, because we've got a deputy sheriff who hasn't 
necessarily ever done that before, how we go about procuring 
Federal search warrants, grand jury subpoenas. So, a 
familiarization process with the Federal prosecution component 
is part of it.
    Mr. Waters, I'm sure, will be able to answer that question 
in much greater detail than I can right now, representing the 
ICACs, but it really does cover the spectrum of how we bring 
these cases. There's no one-size-fits-all in terms of the 
potential things that you've sent out.
    Senator Sessions. I would just say that if you're going to 
empower and really get the full benefit of State and local law 
enforcement, you would agree that training is very valuable, 
would you not? And No. 2, would you agree that it is a very 
appropriate Federal role? In other words, rather than trying to 
put Federal agents all over the country and prosecuting these 
cases directly and investigating them directly, if we can 
empower the local people to do that as part of their duties, 
that's more consistent with our Federal framework than the 
other way around.
    Mr. Scott. I agree wholeheartedly with that observation. 
Just by way of example, on May 1 in Sacramento, May 2 in 
Fresno, the National Center for Missing and Exploited Children 
is providing training for our local law enforcement officers on 
this exact issue. Mr. Craig Hill is coming out. We're going to 
have approximately 100 agents in each location, and it really 
is an example, again, of the complete partnership of Project 
Safe Childhood, where we're doing this under that umbrella and 
utilizing the resources that are given to us by the National 
Center.
    Senator Sessions. And of course, sometimes, like Mr. 
Hillman or Mr. Waters, they can train Federal agents in how to 
do it.
    Mr. Scott. Absolutely. No question about it. Many times, 
some of the very best investigators that we have in my district 
are deputy sheriffs, and these guys are terrific at what they 
do and we can all learn from those kind of people.
    Senator Sessions. And they do participate and they train. 
They are trainers at these conferences.
    Mr. Scott. Absolutely.
    Senator Sessions. It's not just Federal people.
    Mr. Scott. Yes, sir. It's not top down exclusively.
    Chairman Biden. I had to check. In Delaware, trafficking is 
2 to 25 years, and simple possession is zero to 2. But you're 
right. Across the Nation, generally the Federal penalties are 
stronger and stiffer than State penalties, on balance, across 
the country, and even in Delaware, on simple possession.
    But thank you very much. I'm sure we're going to want to 
talk to you again, or at least correspond with you, as this 
legislation wends its way through the process here and as we 
learn more.
    Thank you very, very much.
    Mr. Scott. Thank you again, Senator, for convening this 
hearing. I very much appreciate the opportunity to be here.
    Chairman Biden. Thank you.
    Now, our next panel. Our first witness will be Special 
Agent Flint Waters, who's been referenced a number of times 
here, the lead agent in Wyoming's Internet Crimes Against 
Children Task Force. He's widely recognized as a national 
expert in this area of investigating online exploitation. He's 
received numerous awards, including the 2006 Attorney General's 
Special Commendation Award, and the 2006 National Center for 
Missing and Exploited Children Law Enforcement Leadership 
Award. He teaches throughout the Nation and abroad, and is 
responsible for the creation of the largest Internet undercover 
operation in law enforcement history and we look forward to 
hearing from him in a moment.
    Next, is Lieutenant Robert Moses. He is the Unit Commander 
of the Delaware State Policy High Technology Crimes Unit. 
Lieutenant Moses has been employed as a police officer since 
1981 and has been a detective since 1986. Lieutenant Moses is 
instrumental in the formation of the High Technology Crime Unit 
which was formed in 2001. He's received hundreds of hours in 
network and computer forensic training and he's recognized as a 
certified forensic computer examiner by the International 
Association of Computer Investigative Specialists.
    I understand from the Attorney General of Delaware, who I 
just happen to speak to from time to time, that Mr. Moses is 
the unquestioned leader in our State, and an indispensable part 
of the team of how to move on this.
    Mr. Hillman, again who's been referenced, is the executive 
director of the Alabama District Attorney's Association and the 
State Office of Prosecution Services, a position that he has 
held since 2002. Prior to this, he was Chief Assistant D.A. for 
the Shelby County District Attorney's Office, the 18th Judicial 
Circuit. I thank him again for being here.
    Michelle Collins is the executive director of Exploited 
Children's Services at the National Center for Missing and 
Exploited Children. She directly oversees the cyber tip line, 
and she spearheaded the creation of the Child Victim 
Identification program and has worked with programmers to 
create the Child Recognition Identification system.
    Ms. Collins is an unquestioned national leader in this 
field and she travels domestically and internationally to 
educate law enforcement officers and policymakers in the many 
aspects of online exploitation in how to come up with critical 
techniques to help identify these victims. She also has her 
B.A. in psychology from George Mason and her Master's in 
criminology from the University of Maryland. We welcome her as 
well.
    And last, but not least, is Grier Weeks. Mr. Weeks is the 
executive director of the National Association to Protect 
Children, PROTECT, which we've referenced here, a pro-child, 
anti-crime grassroots organization with members in 50 States. 
In 2006, he was among the founders of PROTECT. Since that time 
he's led the organization's effort to pass legislation and 
change child protection policy in 10 States. He frequently 
writes and speaks on child exploitation policy and has 
testified on this subject before the U.S. House of 
Representatives Judiciary Committee and the Energy and Commerce 
Committees. He lives in Asheville, North Carolina.
    We welcome you all. I would invite each of the witnesses, 
based upon the order in which they are called, to testify.
    The floor is yours.

  STATEMENT OF SPECIAL AGENT FLINT WATERS, OFFICE OF CRIMINAL 
  INVESTIGATION, STATE OF WYOMING ATTORNEY GENERAL, CHEYENNE, 
                            WYOMING

    Special Agent Waters. Chairman Biden, Ranking Member 
Sessions, thank you for the opportunity to testify before you 
today on the subject of violence and exploitation against 
children.
    I am Flint Waters, Special Agent with the Wyoming State 
Division of Criminal Investigation. Robert Leesonby, Bill 
Wiltzy, and myself have been working recently on a system that 
I built 2 years ago to provide law enforcement with the ability 
to work these cases and investigate these details throughout 
the world.
    I'm here today, first, as a frontline investigator, as an 
officer who is pursuing these cases, serving the warrants, 
arresting the offenders, and rescuing children, and I see these 
challenges firsthand. Our system, known as Operation Fair Play, 
is a comprehensive infrastructure that gives law enforcement 
the tools they need to leverage the latest technologies to 
identify those who track and prey on children.
    Through this system we are able to provide solutions that 
assist in peer-to-peer investigations, web site investigations, 
chat room, and mobile telephone undercover operations. I want 
to emphasize at the start the importance of responding to this 
problem with a multi-pronged attack. The National Center for 
Missing and Exploited Children, through its cyber tip hotline, 
is serving the critical task of receiving 911 calls for help 
from citizens and Internet service providers. Having someone 
there to respond to these reports of suspected criminal 
activity is essential if we hope to make use of this valuable 
resource.
    Of course, it is also essential that law enforcement, to 
include State and local investigators, Internet Crimes Against 
Children Task Forces, the FBI, Homeland Security, and the U.S. 
Postal Inspection Service be ready not only to respond to these 
public reports, but to aggressively man a proactive attack as 
well. We cannot carry this fight without both a defense and an 
offense.
    I'd like to share with you a bit of the material that we 
see every day. One of the most frequently seen movies being 
distributed now is of a toddler on a changing table. The video 
zooms in on the child's diaper as the child is being sexually 
penetrated by an unknown male. We're seeing the rape of more 
and more very young children, and in fact we're now seeing 
cases where the criminals are activating webcams, molesting 
their children, while participants out on the Internet watch 
and instruct them what to do. We rescued a Wyoming child in a 
case exactly like this.
    We are also seeing modifications to the movies and the 
images. Offenders are compiling the material in an online 
instruction manual that trains each other how to rape children 
and how to make it more difficult to detect and more difficult 
to find during forensic examination. If you want to see how 
much we can do, consider some of the children that we've 
already rescued. In San Diego, our system resulted in the 
arrest of a respiratory therapist at Children's Hospital.
    This offender was molesting children that were in his care, 
often hospice care. He targeted, often, the non-verbal, 
representing the most defenseless and most helpless children he 
could find. This is not the type of person that is going to 
show up a neat dateline. This is an individual who already has 
legitimate access to children. He's using these horrific movies 
that he finds on the Internet to normalize his intentions to 
continue to victimize one child after another.
    Using these systems, we were able to find an offender in 
Ohio who had been seen over 800 times trading child pornography 
by law enforcement. This monster would film himself--
    Chairman Biden. Excuse me, sir. When you say ``they have 
been seen'', you mean, by Internet traffic, been seen.
    Special Agent Waters. That's correct, Senator.
    He would film himself tricking them into drinking juice, 
and film as he raped the children. Numerous children were 
rescued because this predator traded child pornography on the 
Internet. Intervening on behalf of these children is more than 
working in chat rooms, web sites, or peer-to-peer, it's about 
placing law enforcement in every possible forum where the 
offenders are leveraging technology to victimize children, and 
we can do more.
    We can't blame peer-to-peer systems or chat rooms or social 
networking sites. We are a society of technological advance. 
Sadly, there are a few that leverage those advances to hurt 
children. Blaming this problem on peer-to-peer innovation is 
like blaming the Internet highway system when someone chooses 
to transport drugs on it.
    What we have to do is scale our law enforcement, 
prosecutorial, and judicial resources to ensure that we as a 
society are prepared to respond to the challenges and can move 
along and keep up with the innovation. We need to ensure that 
the national computer forensic capacity can retrieve and 
present the evidence of these computers, projects like the FBI 
Forensics Labs, as well as partner solutions like the National 
Computer Forensic Institute in Alabama.
    To better understand how many offenders we could 
investigate, I'd like to show just some small details. In 2008 
alone, we've seen over 1,400 IP addresses that have been found 
by law enforcement over 100 times. Imagine how many offenders--
    Chairman Biden. Could you explain that? Again, when you 
told me that the first time--maybe I'm just a little slower 
than most--but I wasn't exactly sure what you meant. At the top 
it says, ``USA PA 2,792''. What does that mean?
    Special Agent Waters. That means that law enforcement, 
while downloading child pornography, saw an individual in 
Pennsylvania who was offering to trade this material over 2,700 
times since January 1st.
    Chairman Biden. So they were able to get, because of the 
number, an identification number that person had to have in 
order to be online, whether it's through Comcast or whatever 
mechanism, they were able to go on and see that someone with a 
certain number had traded, 2,792 times, child pornography. Is 
that what this means?
    Special Agent Waters. Yes, Senator. He appeared as a source 
to us for child pornography that number of times. Yes, sir.
    Chairman Biden. OK.
    Special Agent Waters. I would like to be clear, I am not 
saying that law enforcement isn't doing enough with what they 
have. I'm saying that there's so much more they could do if 
they had the resources.
    Senators, I would ask you to picture the pile of work you 
leave waiting at the end of your day. Now imagine that in your 
in-box are hundreds of leads, and as you leave the office to go 
home, you're walking away potentially from dozens of children 
that are waiting to be rescued, and each of these children must 
wonder if anybody cares.
    Please forgive the offensive nature of what I'm speaking 
about here today. I describe these despicable crimes to you 
because I hope you never have to see them. I want you to hear 
about the crimes being perpetrated on American children because 
I know you have some of the greatest power to intervene, and we 
can do more.
    Thank you very much for your time, and I will be available 
to answer any questions that you ask of me.
    Chairman Biden. During the question period I'm going to ask 
you to put up on the screen, if you're able, an example of one 
of those folks and how you can tell by looking at that file 
what kind of material they're trading in.
    Special Agent Waters. Yes, Senator.
    Chairman Biden. Is that possible?
    Special Agent Waters. I will show the file names that are 
very egregious. Of course, we won't show the images.
    Chairman Biden. No, I didn't mean the images.
    Special Agent Waters. Yes, sir.
    Chairman Biden. All right. Thank you.
    [The prepared statement of Special Agent Waters appears as 
a submission for the record.]
    Chairman Biden. Lieutenant Moses, welcome.

STATEMENT OF LIEUTENANT ROBERT C. MOSES, HIGH TECHNOLOGY CRIMES 
          UNIT, DELAWARE STATE POLICE, DOVER, DELAWARE

    Lieutenant Moses. Thank you, sir. Good afternoon, Chairman 
Biden, Ranking Member Sessions. My name is Lieutenant Robert 
Moses, and I am the officer in charge of the Delaware State 
Police High Technology Crimes Unit and the Delaware Child 
Predator Task Force. Thank you for the opportunity to discuss 
the most successful law enforcement program, the Internet 
Crimes Against Children Task Force.
    I am particularly honored to be here with you and some of 
my peers in law enforcement. The dedication, knowledge, and 
skills of officers around the Nation, along with Federal 
funding, have helped to make the ICAC program such a success in 
Delaware and across the country. In particular, Flint Waters of 
the Wyoming ICAC has led the charge in his efforts against 
child sexual exploitation. His vision and technical skills have 
provided law enforcement officer agencies worldwide with 
Operation Fair Play.
    Operation Fair Play software allows law enforcement to 
proactively identify criminals who possess and distribute child 
pornography. By using the Wyoming ICAC software, we will have a 
profound effect on the safety of our children by saving them 
from the physical and psychological trauma of sexual abuse.
    To be clear, possessors of child pornography are predators, 
but moreover, research has shown that at least 30 percent of 
all these individuals who possess child pornography have had 
sexual contact with a child as well. We see these cases in 
Delaware all the time. Once instance involved a father of an 
18-month-old boy who videotaped himself sodomizing his baby. We 
have encountered a child therapist who counsels children with 
sexual disorders abusing his clients and downloading child 
pornography. You have just heard a sampling, but even that 
cannot prepare you for the shocking nature of the violent, 
degrading pornography we see every day in our investigation.
    In a process known as ``grooming'', predators use graphic 
material to lower the inhibitions of the children they are 
attempting to seduce. The predators use the same material in an 
effort to arouse the children or demonstrate the desired sexual 
acts. It cannot be forgotten that each time a graphic image 
moves on the Internet, the child in the photograph is being 
revictimized.
    Investigators must not only deal with the complicated 
technical, legal, and jurisdictional issues when the Internet 
and computers are involved, but we also need highly trained and 
equipped individuals to conduct the forensic examinations of 
electronic media seized.
    The forensic examiner provides the evidence necessary for 
the prosecution of online sexual exploitation and 
investigation, and also develops other investigative leads 
pointing to the identity of other victims or other suspects.
    In particular, the Delaware ICAC received three cyber tips 
from the National Center for Missing and Exploited Children 
regarding an individual who sent child pornography imagines via 
e-mail. The investigation revealed that the sender of the e-
mail was Paul Fillman of Georgetown, Delaware. A forensic 
examination revealed images and videos of sexually abusive 
images of children, as well as nearly 3,000 online chat 
conversations between Fillman and other individuals. These 
chats were discussions of their desires to have sex with 
children as young as 18 months old. As a result of our 
investigation, nine suspects were turned over to the U.S. 
Attorney's Office for prosecution, and five children were 
rescued.
    There are many success stories, but the lack of skilled 
computer forensic examiners, equipment, and lab facilities 
create a burden on law enforcement because it prevents the 
timely investigation and prosecution of electronic crime. In 
Delaware, we now have the Child Predator Task Force that 
streamlines the efforts of Federal, State, and local law 
enforcement agencies to proactively go after possessors of 
child pornography. The task force was initially formed as the 
Delaware Internet Crimes Against Children Task Force in 2007 as 
a partnership between the Delaware State Police, the Delaware 
Department of Justice, and the U.S. Attorney's Office.
    After receiving Federal ICAC grant funding last October, 
the task force secured additional training and equipment that 
is used by prosecutors and investigators who now work side by 
side in task force headquarters. The demands for fighting back 
against online sexual exploitations are intensive and will 
continue to increase dramatically as technology evolves.
    With continued Federal funding and support from the 
Internet Crimes Against Children Task Force, we will continue 
to navigate the fast-changing terrain in an effort to outpace 
those who use the computer and the Internet to victimize our 
children. Thank you.
    Chairman Biden. Thank you very much. I appreciate it, 
Lieutenant.
    [The prepared statement of Lieutenant Moses appears as a 
submission for the record.]
    Chairman Biden. Mr. Hillman, welcome.

    STATEMENT OF RANDY HILLMAN, EXECUTIVE DIRECTOR, ALABAMA 
      DISTRICT ATTORNEY'S ASSOCIATION, MONTGOMERY, ALABAMA

    Mr. Hillman. Thank you, Mr. Chairman, Senator Sessions. My 
name is Randy Hillman. I am the executive director of the 
Alabama District Attorney's Association and the Office of 
Prosecution Services in Alabama. I have spent the last 20 years 
of my life in this field and there is no profession, in my 
judgment, that is any more important than what we are doing. It 
is an honor and a privilege to appear before this committee 
today to talk about a subject that is so vital to what we do 
every day, and hopefully what we discuss here will make a 
difference for victims in years to come.
    While the Internet has been a great advancement and has 
made our world a much smaller place, it is not without its dark 
side. Those who would exploit our children, including child 
predators and child pornographers who were once relegated to 
back rooms and alleys to engage in their conduct, now with an 
Internet connection and a few clicks of a mouse they have an 
open window into our children's bedrooms.
    Our research has indicated that State and local law 
enforcement in this country will handle well over 90 percent of 
the numbers of cases that are going through the criminal 
justice system in a year, probably in excess of 95 percent, and 
probably even higher than that.
    State and local law enforcement and prosecutors are the 
emergency room doctors of the criminal justice system. We are 
on the front lines of fighting this fight and fighting child 
predators and molesters every day. In the past 50 years, there 
have been basically two watershed events that have occurred in 
the criminal justice system: the first is the advent of the 
science of DNA, and the next is digital evidence and digital 
storage devices. While DNA is relevant in many investigations 
and it is critical to those investigations, the numbers of 
cases that we're seeing that involve digital evidence far, far 
outweighs what we see with DNA.
    State and local law enforcement and prosecutors are trained 
and skilled in investigating robbery cases, murders, rapes, and 
other similar crimes. Yet, too often when a call comes in to 
the local police department and says that a child is being 
cyber stalked for purposes of sex or what have you, we are at a 
loss. We don't have a clue what to do with those cases. While 
some larger law enforcement departments have available 
resources to handle them, other agencies are simply caught 
short.
    Simply put, we know about blood and bullets but we are 
sorely lacking in our ability to deal with megabytes and 
megapixels. The most glaring disconnect in all of this is the 
lack of training for State and local law enforcement. That is 
due to basically two factors: the first is the availability of 
that training, and second, and just as important, is the cost 
of that training. That is the Achilles' heel of State and local 
law enforcement training all across the spectrum of crimes that 
we deal with. We frankly just do not have the money to train. 
In this case, with these types of crimes, we do not have the 
availability of training.
    What we are asking this committee and you all to do, is 
help leverage State and local law enforcement as a tool. Make 
us your army out there, watching, prosecuting, pushing, and 
investigating these predators. The National Computer Forensics 
Institute, which Senator Sessions referenced earlier, was 
created as a solution to the lack of this cyber crime training 
for law enforcement, prosecutors, and trial judges throughout 
the United States.
    This training facility was conceived, developed, and will 
soon begin implementation of curricula driven from a law 
enforcement perspective. The methods employed there are time-
tested and proven in countless courts across this Nation. 
Purposefully it is not from academia and it is not merely a 
theoretical exercise, but it is designed to maximize our 
ability to catch and incarcerate cyber criminals and child 
molesters.
    The NCFI is a partnership between Federal, State, and local 
governments who recognize the huge void in this area and join 
together to solve the problem. This partnership includes the 
U.S. Department of Homeland Security, the U.S. Secret Service, 
the State of Alabama, the Alabama District Attorney's 
Association, and the city of Hoover, Alabama. It is 
approximately 90 percent complete and will begin training State 
and local law enforcement, prosecutors, and trial judges May 
19, 2008, about a month from now.
    Once complete, we will have the ability to train nearly 
1,700 students per year in all facets of digital evidence, from 
first responders, to network intrusion, to the true forensic 
examinations. Most importantly for today's hearing, the NCFI 
will equip State and local law enforcement officers to 
effectively investigate child pornography cases. The NCFI will 
teach law enforcement to use the most advanced law enforcement 
technology, including the technique that was so aptly presented 
to you a few minutes ago by Flint Waters.
    In addition to classroom and hands-on instruction, we will 
have students practice courtroom skills using the in-house 
``Smart Courtroom'' that we have placed at that facility. This 
training will be provided at absolutely no cost to any of the 
trainees, and many of those trainees will leave there with 
equipment, and software, and hardware to do what we've just 
trained them to do. Again, that is the impediment that we get 
when we do this training with State and local law enforcement. 
When they go home, they do not have the ability to do what we 
have trained them to do and we are taking care of that through 
this center.
    Because the NCFI was designed by law enforcement for law 
enforcement, because we have a brand-new state-of-the-art 
facility that was designed exclusively for this kind of 
training, because this training is free of charge to all 
participants, and because this is our sole function, this is 
all we do, I am convinced that the NCFI is one of the best 
tools this Nation has to fill this training gap.
    Mr. Chairman and members of the Committee, you are truly in 
a unique position here. You are able to impact the lives of 
those children who cannot help themselves.
    They are our most precious asset, and at the same time 
they're the most vulnerable. I would humbly ask, on behalf of 
all law enforcement, Federal, State, that you give us the 
training and the tools we so desperately need to see that our 
children are safe from those that would harm them.
    Thank you, Senator.
    Chairman Biden. Thank you very much.
    [The prepared statement of Mr. Hillman appears as a 
submission for the record.]
    Chairman Biden. Ms. Collins, welcome.

 STATEMENT OF MICHELLE COLLINS, EXPLOITED CHILD UNIT, NATIONAL 
CENTER FOR MISSING AND EXPLOITED CHILDREN, ALEXANDRIA, VIRGINIA

    Ms. Collins. Thank you. Mr. Chairman and distinguished 
members of the subcommittee, I welcome this opportunity to 
appear before you to discuss child sexual exploitation. To 
begin with though, our president at the National Center, Ernie 
Allen, is unable to attend today. He sends his sincere regrets. 
He is currently out of the country meeting with financial 
leaders to discuss different ways and efforts to eradicate 
commercial child pornography.
    Ernie has also asked me, on behalf of himself as well as 
the National Center's Board of Directors, former Chairman 
Robbie Calloway who is currently with me, to publicly express 
our sincere thank you to you for your central role in the 
creation of the National Center 24 years ago and your 
leadership with children.
    Chairman Biden. Who is that important guy sitting next to 
Robbie?
    Ms. Collins. There you go. Manus Cooney.
    Chairman Biden. Manus Cooney used to run this committee for 
a long time. Manus, it is great to see you. You are a first-
rate guy. Glad to see you here.
    Mr. Cooney. Had a few hours in this room.
    [Laughter.]
    Chairman Biden. Thank you.
    Ms. Collins. Well, as you know, the National Center is a 
not-for-profit corporation mandated by Congress, working in 
partnership with the Department of Justice. For 24 years, the 
National Center has worked under a congressional and statutory 
mandate to conduct specific operational functions, including 
our various programs to fight child sexual exploitation.
    The National Center is attacking the problem of child 
sexual exploitation in several ways. One, we are fighting 
commercial child pornography on the Internet through mobilizing 
financial companies and have seen the use of credit cards to 
purchase child pornography virtually eliminate.
    We are fighting non-commercial child pornography on the 
Internet by working with industry leaders to develop new 
technology tools to disrupt the traffic. With the hub of a 
national background screening pilot that has identified 
individuals with criminal histories who are seeking to 
volunteer in positions that would give them access to children, 
we support the U.S. Marshals and State and local law 
enforcement in an effort to track down the estimated 100,000 
missing sex offenders.
    Our longest running program to date is the cyber tip line 
to fight the exploitation of children. Mandated by Congress, 
the cyber tip line is operating in partnership with the FBI, 
ICE, the Postal Inspection Service, the ICAC task forces, U.S. 
Secret Service, and CIOS at the Justice Department, as well as 
with local and State law enforcement agencies. We are receiving 
reports regarding seven types of crime against children online, 
including child pornography and enticement against children.
    The reports are being made both by members of the public, 
as well as electronic service providers who are required by law 
to report apparent child pornography to the cyber tip line. Our 
analysts will then evaluate the content and related 
information, determine the geographic location of the apparent 
criminal act, and then provide all of that information to law 
enforcement for appropriate investigation.
    Also, our reports are triaged so any child that's in 
imminent danger would get first priority. The FBI, ICE, and 
Postal Inspection Service all assign agents and analysts to 
work at the National Center. In the 10 years since we began the 
cyber tip line we've received over 580,000 reports regarding 
child sexual exploitation. Electronic service providers, in 
fact, have reported more than 5 million images of child abuse 
to the National Center.
    In addition, law enforcement has submitted more than 13 
million images and videos of child pornography in the last 5 
years alone to the Victim Identification Program. Our analysts 
there are working to help prosecutors secure convictions, as 
well as help law enforcement identify children that are 
currently being abused and need to be rescued. Last week alone 
in that effort, we reviewed more than 166,000 images and videos 
of child pornography.
    Because of our role working in these programs we have an 
unparalleled depth of knowledge regarding various ways across 
the platforms on the Internet that children are being 
victimized. Each of the platforms online, whether it be the 
World Wide Web, e-mail, news groups, peer-to-peer, provide 
different ways for individuals to exploit children, whether it 
allows them to directly communicate with a child or it allows 
them to discretely trade these types of files online.
    The 18 million images that the National Center has reviewed 
actually came from a variety of these platforms. At the back of 
my written testimony I've actually included several success 
stories across the country regarding ways that law enforcement 
has worked cases that children have been victimized in a 
variety of the platforms.
    Because of the diversity within the Internet, law 
enforcement uses a variety of tools and techniques to try to 
detect and investigate the range of crimes against children, 
from enticement of children on social networking sites to 
distribution of child pornography by the web, e-mail, and peer-
to-peer networks. Law enforcement is actively engaged in the 
technology in these investigations every day using similar 
tools and techniques across State, local, and Federal levels.
    After 10 years of working at the National Center and 
working with law enforcement who investigate these types of 
cases, I am pleased to say that law enforcement at all levels 
are working more closely than ever before on these important 
investigations and the level of cooperation really is 
unprecedented and has led to the rescue of thousands of 
children.
    The cyber tip line is a major source of leads for law 
enforcement. It streamlines the process from detection to 
conviction. The process increases the efficiency of law 
enforcement and maximizes their limited resources. I cannot 
over-emphasize the need for increased funding for all law 
enforcement programs on the local, State, and Federal level.
    Despite the progress that has been made in the fight 
against child sexual exploitation, it is well accepted that 
there are simply more of these potential cases than there are 
trained law enforcement officers to investigate them. But I can 
assure you that any additional resources to build capacity 
across the country will lead to more prosecutions and rescue 
more children, and that is what we are all working toward.
    Thank you very much.
    Chairman Biden. Thank you very much.
    [The prepared statement of Ms. Collins appears as a 
submission for the record.]
    Chairman Biden. Mr. Weeks?

    STATEMENT OF GRIER WEEKS, EXECUTIVE DIRECTOR, NATIONAL 
   ASSOCIATION TO PROTECT CHILDREN, ASHEVILLE, NORTH CAROLINA

    Mr. Weeks. Senator Biden, thank you very much for allowing 
us to be here and for driving this train.
    I want to correct one thing: PROTECT was founded in 2002. 
That was our mistake. We've got probably the most broad 
spectrum of people that I've ever seen, all who just come 
around one issue, which is protecting children.
    One of the things that we do at the State level is work 
with legislatures to get the State resources to leverage the 
Federal dollars you are considering here today. In the last 
year, we've gotten money from States to essentially match or 
complement the Federal investment in California, Tennessee, and 
Virginia.
    It is new ground, because essentially what we're doing is 
explaining to the States how this Federal task force program 
has worked, and is saying to them, now it's your turn to step 
up to the plate. It will make all the difference in the world.
    I want to add one thing here that I didn't put in my 
written testimony. In listening to the way people have 
discussed this today, I want to suggest one way of looking at 
this that I think is critical. This is not just yet one more 
rotten thing we do to kids. I think a lot of people, the 
tendency would be to walk away and say, I thought I'd heard it 
all, you wouldn't believe what I heard today. This is actually 
the linchpin. This is enormously important historically, the 
technology that we now have in our reach, and I'll explain why.
    These are not just unbelievable movies and pictures, these 
are crime scene recordings. They are the proof--the proof--of 
massive child sexual abuse. These will lead us to the rescues 
and to the children. If you think about it, you might flip the 
question around that was asked many times today: how many 
possessors are abusers? What I would suggest is you ask: how 
many abusers are possessors? Because if you look at it at the 
local level, with all the legions of cases that are languishing 
in Child Protective Services or in the courts and nobody can 
prove it and the poor kid just can't get resolution, how many 
of those guys have child pornography? Instead of that fragile 
kid on the witness stand, you've got a hard drive. So, this is 
how we're going to get them.
    I also want to say that the maps that we've seen today are 
not just graphics of Internet activity. They're not just maps 
to show us where the perpetrators are, these are child rescue 
maps. Those dots represent kids that desperately need us to 
come to those doors. Law enforcement is now providing you with 
the information that can lead authorities very predictably to 
tens of thousands of locations within the U.S. where children 
are waiting. I hope that Agent Waters will have a chance, 
privately or in this hearing, to explain how they are able to 
prioritize and target with a real high likelihood of finding 
actual victims, and that is revolutionary.
    The reason why these are rescue maps is because, while 
every single one of these people--or the vast majority of 
them--are contributing to a black market in child exploitation, 
as we heard today, a lot of them are also sexual preying on 
children in their communities. The ramifications of this are 
clear. We now have, for the first time in American history, the 
ability to interdict and stop these crimes against children on 
a massive scale.
    In the interest of time, I just want to touch on a few key 
points that I think it's important for the Committee to 
understand well. The first is, as you know as the author of 
this bill, the number-one issue is resources. With this kind of 
onslaught, the other things we can do are important. We need 
better State laws, we need better regulation of industry, but 
if we don't have the cops to go do anything about it, it's not 
going to get us very far. So the resources really are the key 
thing.
    I think it's also important the Committee know that the FBI 
Innocent Images Unit--and this is one example of one of these 
law enforcement prongs in this attack, but a very important 
one--operates with essentially the same congressional funding 
that HUD gave Rhode Island for homeless assistance. It is a 
cause dear to me, but we're talking about the size of a mid-
sized real estate office, basically. They have 32 people, but 
of those, there's 13 agents and 6 analysts. They can't come up 
here, or they don't come up here and tell you: help, the house 
is burning down. That's critical.
    To make things worse, as it came out in the House hearings, 
what little they do have has been diverted to a large extent by 
the FBI. They essentially acknowledged in the House hearing in 
October that they had sent about $4 million of their little 
budget over to the Internet Crimes Complaint Center. Under some 
embarrassing circumstances, they said they wouldn't do that any 
more. I think the point here is, that unit needs a huge 
increase in resources whether the brass likes it or not, and 
they need the accountability that's in your bill to make sure 
that they spend it the right way.
    I quickly want to touch on two other things. One critical 
issue that is looming here that's of the utmost importance as a 
policy matter is the future of the Wyoming-based network, which 
is essentially the only deconfliction system in the country. 
The Department of Justice has announced that it's planning to 
do this project where they move a lot of this stuff to the RIAS 
network. We think that that is actually a very good goal long 
term.
    It needs to be done very carefully and hand in hand with 
what's on the ground already out there in Wyoming. We've heard 
along the way some concerning talk about maybe privatizing or 
outsourcing this, whether it's to a university--that was 
discussed for months in the system, sort of--or to a private 
entity. We would strongly oppose that. We think this is 
critical law enforcement information that needs to stay with 
law enforcement. I would encourage the Committee to closely 
watch DOJ as that goes forward in how that is handled.
    I would like to close, Senator, with a brief statement, 
just a few sentences, that the Surviving Parents Coalition 
asked us to share with you. You know them very well. These are 
Americans who have paid unthinkable prices for the wisdom that 
they've gotten, and by all rights might never talk about child 
pornography. It seems like a little counterintuitive even in 
this country that they would be focused on this, but they are 
because they understand, again, the strategic importance of 
this issue.
    Ed Smart asked me to read this to you. They say: ``As 
parents of missing and exploited children, we doubt there will 
be a more effective way of helping children than the ICAC task 
force program. More children will be rescued and saved from 
living nightmares than in any other effort that has been made. 
Enabling this team with the proper funding and the most 
effective tools will change the only 2 percent investigated. 
When we look at the thousands of programs currently in effect, 
none of them can compare to the possibilities of the ICACs in 
dollars spent for lives rescued.''
    Thank you.
    [The prepared statement of Mr. Weeks appears as a 
submission for the record.]
    Chairman Biden. Thank you all very, very much. Again, 
having been involved for a long time in drafting legislation 
dealing with violent crimes of all sorts, one of the most 
important things to do, I think, is to lay out accurately, 
without exaggeration--and none of you have exaggerated--the 
nature of the problem we're attempting to solve, as well as 
laying out for the public at large just how heinous this is, to 
be able to generate the necessary controlled outrage for people 
to prioritize, where is the most important place to place the 
resources of this country, which are limited.
    So one of the things I did, and I hope at some point I will 
get--I would ask Mr. Waters to come back with some of you and 
maybe gather up a number of my colleagues in a closed room. 
Some of this is so offensive, it is so violative of the 
conscience and the sensibilities of most Americans, that 
although it's real, it is not salacious in the sense that it's 
designed to in any way arouse an interest, but it is somewhat 
as sickening. But I don't think people--I think the examples 
that you gave, Bob, about what happened down in Seaford, having 
a father doing what he was doing, I mean, I think people find 
it so, so beyond the realm that it's almost unbelievable.
    So what I'd like to ask you to do, if I may, Flint--and 
I'll rely on your judgment here--and it would be very hard, 
fortunately, for the cameras to pick up exactly the titles, but 
if you would do what you did for me and bring up--it doesn't 
have to be the most egregious offender in terms of the total 
number. Bring up--first of all, explain for the record ``peer-
to-peer'', what that means. I know the vast majority of 
Americans do, but a lot don't know what that means. Speak to me 
for a second about what you said to me which really struck a 
chord with me. You said, it used to be this all was a 
commercial transaction. I asked you, what is made by this? 
There's no money changing hands in this area.
    So while we focus on commercialization of child 
pornography, which is important to do, my impression is, within 
the next 5 years, there's really no need. If you own a 
computer, all you've got to do is go on these peer-to-peer 
networks and you'll find the most graphic and outrageous 
movies. I mean, some of these movies are how long?
    Special Agent Waters. Twenty, thirty minutes.
    Chairman Biden. Twenty, thirty minutes. So it's not like 
you've got to go to a commercial outlet or a vendor who is 
selling child pornography in the same way that pornography is 
able to be sold legally for adults over the counter and on 
networks, et cetera.
    So I was impressed with how widespread this peer-to-peer 
trading is. If you could briefly--and I'll not ask any more 
questions. I'll yield to my colleague. Briefly explain what you 
mean by peer-to-peer. Distinguish between that and traditional 
commercial transactions to acquire child pornography. Then give 
an example of how, without any intrusion, because this is being 
done out in the open, in effect. This is a transaction that's 
occurring out in the open.
    You don't have to, other than have the software capability, 
of being able to figure out how to narrow it down. So if you'd 
go through a little explanation of what you would do if you 
went on a peer-to-peer network and said, you know, the little 
ID box, what do you want? I mean, do a little bit of that for 
us, and then how you can identify people who have engage in 
certain kinds of trafficking to give you an insight into how 
much of a predator they are.
    Special Agent Waters. Thank you, Senator. The peer-to-peer 
networks, by themselves, are actually a very impressive 
computer design that allows people to share files on a wide 
scale with a high volume of trading. It is unfortunate that 
there are some that are using it to exchange these images of 
child pornography. The way the system is set up, whatever 
material you wish to trade, be it legal material, maybe you 
have a small band and you're sharing your music, you can make 
that collection available by downloading peer-to-peer 
applications, put all your music in that shared folder, and 
allow other people on the network to get it very quickly.
    It transfers that very fast from one computer directly to 
the collection of another computer in their home. It's referred 
to as peer-to-peer because the structure of the system is set 
so that after finding the other sources of the material I don't 
have to communicate with any centralized server. I can just 
talk from my computer to theirs and get their collection.
    Now, unfortunately in this area where we're working we're 
finding the folks whose collections consist of movies depicting 
the rape of children. We can go on very quickly by downloading 
various peer-to-peer applications. We can enter in a search 
term consistent with the type of criminal conduct we're 
investigating. Once we launch that search term, we are 
presented with a menu on our screen of all the types of child 
pornography that's available at that moment and we can look 
through the names and pick whatever it is of interest to that 
person.
    Now, in our case we're working on the material where the 
crimes are very egregious, the children are very young, high 
levels of violence. We'll pick those files for download, and in 
a matter of seconds we start receiving those movies onto our 
computer. In addition to the transfer of the movie, we can 
see--
    Chairman Biden. Do you know where those movies are coming 
from?
    Special Agent Waters. Yes, we do, Senator.
    Chairman Biden. That's the critical point.
    Special Agent Waters. We can see--in our software we can 
actually display it as a map, but we can see the IP address of 
origin where this transfer is taking place.
    Chairman Biden. What is an ``IP address of origin''? What 
does that mean?
    Special Agent Waters. An IP address is just, in essence, 
the Internet phone number. It's the method that the computers 
use to find each other. It's normally not viewable--
    Chairman Biden. And are you able, through that IP address, 
to determine the actual person who owns that, that has that 
number? How do you do that?
    Special Agent Waters. In many cases we can by submitting a 
court process to a service provider and asking them who has the 
IP number.
    Chairman Biden. Give me an idea of a service provider.
    Special Agent Waters. Perhaps, well, you mentioned Comcast. 
We have many that we work with. We can send them a subpoena. We 
give them the address and we give them the time: we saw a crime 
at this precise moment; can they tell us what subscriber had 
it? It's not necessarily the suspect, but it tells us the 
physical location to start and then from there we track it back 
to their collection.
    Chairman Biden. OK. Now, give us a little demonstration.
    Special Agent Waters. I pulled out a list, just a random 
sampling of file names from an individual. Without giving up 
too much investigative detail and allowing these individuals to 
hide, I can display these files names to the screen. I would 
warn folks, now, that this is very egregious material, 
extremely offensive. I'll put it up briefly.
    Chairman Biden. It's like a film, like ``Butch Cassidy and 
the Sundance Kid'', only it has ``Raping of a Three-Year-Old'' 
kind of title, right?
    Special Agent Waters. That's correct, Senator.
    Chairman Biden. So I don't need you to make it any clearer 
for the television. My point is, the verbiage we see on that 
screen are literally the titles of each of the files that have 
been downloaded and transferred to someone else's computer. Is 
that correct?
    Special Agent Waters. That is correct, Senator.
    Chairman Biden. And so there are probably, what, 30, 40, 
50? How many? I can't read them from here, and don't want to 
read them.
    Special Agent Waters. I cut out maybe 20 out of just one 
suspect's collection.
    Chairman Biden. Right. So that if you went into that and 
you saw that what was being traded by that suspect or acquired 
by that suspect were things that related to violent behavior, 
the rape of a 3-year-old--I mean, I read what you had in my 
office. I mean, they're graphic descriptions--
    Special Agent Waters. Yes, sir.
    Chairman Biden.--of what the video will contain. So you 
would be able to, an investigator, looking at that file you can 
easily access--you don't need a court order, you don't need 
anything to access what is sitting out there on the Internet, 
right?
    Special Agent Waters. That's correct. We can download it 
like any member of the public.
    Chairman Biden. Like any member of the public, as if you 
were the one seeking the file, like you were in the peer-to-
peer network and they could download it to you, right?
    Special Agent Waters. That's correct, sir.
    Chairman Biden. And so you can look at those titles and 
then you can actually look at it. You can click on, because it 
doesn't cost anything.
    Special Agent Waters. Right.
    Chairman Biden. You can click on and actually view what 
that particular file has in it. Correct?
    Special Agent Waters. That's correct.
    Chairman Biden. And you're able to, if you had the time and 
unlimited resources, determine whether or not, on a repeated 
basis, multiple times, the person whose computer was acquiring 
this material had watched ``Fifty Different Ways to Rape a 
Three-Year-Old Child'', or a 7-year-old child, or whatever. 
Correct?
    Special Agent Waters. From our subsequent investigation, 
that's correct.
    Chairman Biden. Yes. So there is a way. What Jeff and I 
were talking about--excuse us for being so colloquial here, but 
one of the disadvantages, but advantages, of having only a 
couple of members here at the time is it can be more 
conversational.
    What we were talking about is--excuse me for referencing it 
this way, Jeff--Senator Sessions said, we can get our arms 
around this. We can handle this. This is doable. It's not like 
this problem is so gigantic and so out of our ability to deal 
with it. People just go, oh, God, it's so big, we just can't 
deal with it. You could literally, based upon a set of 
criteria, if you had unlimited resources, narrow down the field 
of people who are the most likely to be the most violent and 
deviant people in this whole field of child pornography, 
couldn't you?
    Special Agent Waters. Well, anecdotally we've been able to 
narrow it down and catch--
    Chairman Biden. Because it's not scientifically tested.
    Special Agent Waters. Right.
    Chairman Biden. But if a guy or woman is downloading 
pornography that has traditional sexual activity between a 
young woman who you don't know whether is 14 or 19, but is 
outrageously pornographic, that's one thing. If you have 
another thing of someone being tied down, beaten and raped 
repeatedly and someone filming it, or a father saying, this is 
my daughter, watch me rape my daughter who happens to be 6 
years old, you're likely dealing with a more pernicious element 
of society. That's all I mean. Right?
    Special Agent Waters. Yes, sir.
    Chairman Biden. And you can, by looking at the files, get a 
pretty good--you can increase the probability, at least 
anecdotally, that you're going to focus on and target on the 
most egregious offenders out there.
    Special Agent Waters. Yes, sir. That's correct.
    Chairman Biden. Now, the reason I mention this, and I'm 
going to stop, years ago one of the sort of criminology 
epiphanies I had as a young Senator was a study done in the 
early 1980's in the California prison system, showing that 6 
percent of the criminals behind bars in California committed 
over 50 percent of the violent crimes that were committed in 
that State over a certain period of time. Career criminals 
commit significantly more crimes than the occasional guy. The 
career criminal pool is relatively small.
    So what we're trying to do--and I'll hush--is take limited 
resources and target them where you get the single biggest bang 
for the buck. I would like to prosecute every single person 
who, other than accidentally, found themselves being a purveyor 
of child pornography.
    As you said--give me the example of the young woman you 
said who just haunted you, whose face you would see repeatedly, 
and how many tens of thousands of people across the world--you 
showed me a worldwide map where that one digital image of this 
young woman being repeatedly molested was literally--you showed 
me day by day, like a virus, how the image of that act against 
her was disseminated worldwide. Talk about that just for a 
second.
    Special Agent Waters. Yes, Senator. Because we are able to 
track by hash value the files as they're being traded, or the 
digital signature of the files, we looked at the image from one 
child, one little girl, a toddler, who had been horribly abused 
and we tracked where law enforcement was given the opportunity 
to receive that file, or that series of files on that little 
girl. We found over a million instances where law enforcement 
was presented the chance to get just her victimization, and it 
was all over the world.
    Chairman Biden. Explain what you mean by ``law 
enforcement'', because people misunderstand that. It's making 
it sound like that this image went straight to the precinct 
headquarters and said, by the way, this is happening. What you 
mean by ``presented'', you mean it was repeated over a million 
times on the Internet that you could track, you could see it 
being punched up a million times, figuratively speaking. 
Explain.
    Special Agent Waters. Yes, sir. Undercover police officers 
working in the peer-to-peer environment were presented 
opportunities to download those movies, so we tracked the 
origin, where they were presented that opportunity from. It 
traveled all over the world. It was unbelievable, the 
saturation. To look at the map of her victimization and realize 
that that's the world that she has to grow up in, she's got 
to--
    Chairman Biden. Even if she's rescued, even if she's taken 
out of that circumstance, for the rest of her life there's a 
file out there where millions of people have looked at and 
watched her graphically being abused. Is that correct?
    Special Agent Waters. That's correct, Senator.
    Chairman Biden. And last, give me the example, because it's 
important for people to know, I think, of the young woman whose 
brother identified--explain to me how--you point out it's hard 
sometimes to go back and identify that young girl and actually 
``free'' her from her circumstance.
    Special Agent Waters. Yes, sir.
    Chairman Biden. You can pick up the people. You don't know, 
of the million people who had that file, who originated that 
file so you don't know who the rapist is in that case. But 
explain to me, explain for the record the case you told me 
about, the young brother in the library and what happened.
    Special Agent Waters. We have had investigations, and one 
in particular, where we watched this little girl grow up. In 
our forensic examinations over a period of several months, we 
would start seeing her picture change. We would see new images 
of her victimization. And this little girl would look at the 
camera and we would look into her eyes as we were running these 
forensics, and it started to haunt us.
    We saw her grow up, so much so that over the years I would 
find myself apologizing to the pictures of this child that no 
one had found her. It was actually the National Center for 
Missing and Exploited Children that contacted us and let us 
know that, in her case, she had been rescued because a family 
member had come across her picture while being on the Internet 
and had confronted, and disclosure was made. I don't want to 
give--
    Chairman Biden. But it was the brother, correct?
    Special Agent Waters. Yes, sir, it was.
    Chairman Biden. It's amazing. It's amazing. I just wish 
there was some way we could--there's no way to sanitize this 
ugliness, but I wish there was some way that would shock the 
conscience of America just to see so much of this going on. I 
don't think we'd have trouble getting the resources if they had 
a clear notion of what it meant.
    At any rate, I've taken much too much time, Jeff. I'm 
sorry. The floor is yours, and the panel is yours.
    Senator Sessions. No, no. Thank you for your leadership and 
expression of concern. I have developed that same philosophy 
about crime. There's just not that many people who will murder 
somebody, not that many people who will rape somebody, and I'm 
sure even a less number of people that will--I don't know 
whether it's any less, but there's only a certain number of 
people that will molest a young child. They can be targeted.
    Unfortunately, psychologists have told me that, if you're 
really honest about it, treatment is not very helpful. 
Discipline, arrest, punishment, incarceration are the only 
thing we know that work. Would you agree with that, Ms. Collins 
and Mr. Weeks, that we have not come forward with an effective 
treatment or cure for these activities?
    Ms. Collins. I have not, as of yet, heard of a cure. I know 
that there's a lot of research and professionals who treat sex 
offenders. It was referenced earlier, at the Buttner Federal 
Correctional Center down in, I believe, North Carolina, they 
are also working with sexual predators who are arrested for 
child pornography-related crimes. I agree that when an offender 
is put in jail, at least there you have the guarantee that 
they're not going to be able to victimize another child for 
whatever amount of time that they're going to be incarcerated.
    Senator Sessions. I don't know if we have any numbers. Has 
anyone attempted to ascertain any number of people in the 
United States who are pedophiles, who have these kind of 
tendencies and have taken these kind of actions? Do any of you 
all know?
    [No response].
    Senator Sessions. Well, I think it is clear, and I think 
Senator Biden is correct, that if we are more sophisticated and 
more effective in utilizing existing resources and additional 
resources, including utilizing the technological breakthroughs 
that you've made, Mr. Waters, and Randy, that you've worked on, 
I know, we can more effectively reduce the number of people who 
are abusing children in America. We can actually bring that 
number down. Would you agree, Mr. Waters?
    Special Agent Waters. Absolutely, Senator. Absolutely.
    Senator Sessions. Lieutenant Moses, would you?
    Lieutenant Moses. Yes, sir.
    Senator Sessions. Randy?
    Mr. Hillman. Absolutely, Senator.
    Senator Sessions. Would you agree with that?
    Mr. Weeks. I think not only can we do that, but we can 
measure it, we can count our success. We've spent billions of 
dollars in this country on prevention and awareness campaigns 
and we had no idea what the impact was. Can I also say, 
Senator, you raised a point earlier that I really wanted to 
agree with. You asked the question of whether it would be 
helpful to have sort of a registry of officers who were trained 
in this. I think that's an extremely important thing, because 
we see at the local level, even good-sized, fairly 
sophisticated police departments who are very sort of insecure 
about what in the world to do with a lead like this. You really 
need a contact in those places. The ICACs at this point are 
just little skeleton crews out there. They can't do all this 
themselves.
    Senator Sessions. Well, I love the FBI and have great 
respect for them. But the way I read their report, the U.S. 
Attorney's analysis, they've got 32 people in the entire FBI 
who are experts and know how to handle this; 260 have worked on 
a case at one point in their life. That means they may have 
helped the expert execute a search warrant. So, I'm not 
impressed. We do need more people like Mr. Waters, like 
Lieutenant Moses, who are full-time, have studied these issues.
    If you know what you're doing you can be a lot more 
effective. Wouldn't you agree, Lieutenant Moses? If you have 
some specialty in it and all the search warrant rules, the 
defenses that will come up, the legal statutes and penalties, 
the expertise you gain after doing a number of these cases is 
very, very valuable.
    Lieutenant Moses. On-the-job experience is the best. I 
mean, that's the way you learn, out there on the street, doing 
it every day, investigating these type of crimes.
    Senator Sessions. Mr. Waters, you mentioned the National 
Computer Forensic Science Institute as a potential solution. 
Mr. Hillman has talked about it. But centers where people could 
come for some rather significant and intensive training 
throughout this whole area of prosecutions, in your opinion, 
would be helpful for the country?
    Special Agent Waters. Yes, I believe they'd be extremely 
helpful, not only in recovering the evidence so that we can 
prosecute that offender, but so that we will recover his 
collection and possibly find victims that we didn't previously 
know about by recovering those digital photos and movies.
    Senator Sessions. Well, in my experience in the prosecuting 
of child pornography, we often did find victims. Is that your 
experience?
    Special Agent Waters. Yes, it is.
    Senator Sessions. What about you?
    Lieutenant Moses. Yes, sir, it is.
    Senator Sessions. Mr. Hillman?
    Mr. Hillman. Yes, sir.
    Senator Sessions. Any of the others want to comment on 
that?
    [No response].
    Senator Sessions. In other words, some people say, so we've 
got some bad pictures, even bad pictures of children. Why is 
that important? Because Buttner said that 85 percent of the 
people they have in the jail--that's the Federal jail that has 
psychological expertise in handling people--have admitted to 
abusing children. I suppose some of them didn't admit it that 
did it, so we're talking about probably 90 percent or more. 
It's just not the normal person who collects child abusive 
pornography. This is a small but very dangerous group that we 
need to focus on.
    Mr. Hillman, what are some of the things you train on and 
are doing and expect to train on when you're fully operational 
for an average police detective that may come there to be 
trained? How can you help that person do their job better?
    Mr. Hillman. Thank you, Senator. We have, for State and 
local law enforcements, there are basically three curricula 
that we have set up. The entry-level curricula, which is 
probably the most bodies that we will handle through the 
center, is designed for the front-line investigator. It is that 
guy who will be out working these cases or starting these 
investigations. This curriculum will literally take a 
computer--we start them from the ground up and we work them up 
in their capacity and their knowledge of digital evidence.
    They physically take a computer and take it apart and they 
learn about each part as it is being torn down, and then they 
put it back together. Then you go from that into a more 
intense, here's what it does and how it does, and when it does 
store information, here's how you reach and grab it, or here's 
how to unplug, or when to unplug, a computer. Here's what you 
advise local law enforcement. You use those individuals who go 
through this basic training to them be a train-the-trainer 
type.
    Senator Sessions. Back in their department.
    Mr. Hillman. Yes, sir. They will be instructed on all sorts 
of investigation techniques. And then the next level of 
training was a network intrusion training, which I think will 
last around 4 weeks, which also deals with a lot of the things 
that Mr. Waters is dealing with. Then the ultimate training 
there--
    Senator Sessions. You will train them in the techniques 
that Mr. Waters has perfected?
    Mr. Hillman. Yes, sir. Yes, sir. And the last level of 
training is a 5-week course that is intense. It is the true 
forensic capability where you can take a machine, download what 
is in it--or image the hard drive in the case of these types of 
investigations--break it down, decide where the computer has 
been, what it's been doing, who's been doing it, and then you 
produce a report and then be available to testify to the 
District Attorney or in the courtroom.
    Senator Sessions. And qualify as an expert?
    Mr. Hillman. Yes, sir. Absolutely.
    Senator Sessions. Well, that's good.
    Mr. Waters, you established a standard method for local 
officers to get a search warrant. Still, Mr. Hillman, there are 
things you have to do. You're a prosecutor. You can't just go 
and peruse everybody's computer. You train the officers in what 
is legal and established and approved and how to get warrants 
when they need a warrant, do you not?
    Mr. Hillman. Yes, sir. Absolutely. And then the second 
level is, we train the prosecutors to help the investigators 
get the search warrants and navigate those through the system, 
and we will train the judges who will receive the search 
warrant to sign off on it. We have had that happen more than I 
care to admit, where judges will refuse to sign a search 
warrant because they don't understand what they're seeing in 
the search warrant.
    Senator Sessions. They don't understand what the current 
law is and they don't understand computers well enough to apply 
the law to the event.
    Mr. Hillman. Yes, sir.
    Senator Sessions. It makes them nervous. It would make me 
nervous.
    Mr. Waters, so you have developed some models for search 
warrants. I've got to tell you, I am sure that is a critical 
step in this process. Is it? Briefly, how does it work?
    Special Agent Waters. Yes, Senator, it is critical that we 
get the search warrants put together. In a lot of ways we have 
developed the models from hard knocks. We take them before our 
State and Federal judges and we find out where we've messed up, 
and they make it clear and we make it right next time. We have, 
over the course of these 3 years, put together warrants now 
that are extremely solid. I don't know of any cases where 
they've been overturned, and mostly it's just because of 
learning from the bench.
    Senator Sessions. Well, that's really important. There is 
no way a little group in Washington or somewhere can review 
everybody's search warrants. You've just got to train people in 
the local areas, and most metropolitan areas and mid-sized 
cities need somebody, would you all agree, that has expertise 
in these investigations. Mr. Weeks?
    Mr. Weeks. Senator, I have often thought that if a police 
department doesn't know what to do with a hard drive, they 
don't know how to investigate child sexual abuse these days. I 
absolutely agree with you.
    Senator Sessions. All right. Well, I'm proud of the 
forensic center that they put up and they developed at Hoover. 
Mr. Hillman really was the driving force in the State District 
Attorneys, which is a little unusual, you know, Senator Biden.
    Chairman Biden. Not in Alabama. You and Hal Heflin get 
everything down there.
    Senator Sessions. Well, no. I mean, they've got private 
investment, they've got the--
    Chairman Biden. I know. I think it's a great--
    Senator Sessions. And they've asked us for some help. But 
what I liked about it was, this was--on their own they came up 
with this conception of training people and it just drives home 
that, in modern-day investigations, even financial 
investigations and a lot of other crimes, but particularly 
child pornography, you have got to understand how the computer 
works, what he law is with regard to search warrants, how to 
access it, and how to present that evidence in court so a jury 
can understand what is happening and feel comfortable finding 
the person guilty beyond a reasonable doubt. I am sure that is 
not easy to do.
    Thank you. I like this panel. I think it's valuable. I'm 
actually getting a little encouraged that maybe there are some 
things we can do to go after this group, this small but very 
damaging group that's causing this kind of problem.
    Chairman Biden. Well, thank you, Senator. I do thank the 
panel. I can assure you, this is only the first in a series of 
hearings we are going to be having on this. My experience, 
again, is you've got to keep banging at this. You just can't 
have a hearing and walk away from it.
    I want to--not for the record now, but the National Center 
has been such a gigantic resources, as Mr. Calloway has been 
kind enough to say. I've been very proud. It's one of the 
proudest achievements that I've been associated with. But what 
I want to do is, in another fora, talk with you all about one 
of the things that I and Mr. Cooney, having been the Minority 
Counsel for so long and become my personal friend over I don't 
know how many years, knows that I really think, Senator, that 
the need for hard, not drives, but data, the need for 
scientific studies relating to some of the questions we had. I 
wanted to talk with the National Center. It's been a repository 
of a lot of this Federal money to help us do that very 
successfully.
    I think we have to bring in the National Science 
Foundation, I think we have to bring in some experts who are 
the leading psychiatrists and psychologists in the world, I 
think we have to bring in and begin to accumulate a body of 
academic--not weight, but while we are moving forward--studies 
in your chosen profession, Ms. Collins, from psychologists, 
psychiatrists, and criminologists so that we have a better 
sense of a number of the questions that have been raised here.
    This has really been, in a sense, a bootstrap operation. I 
mean, locally, whether it's what you're doing, Randy, down in 
Alabama, or what--look what we're talking about. We're talking 
about a State with a population smaller than Delaware, Wyoming, 
having an investigator who's put together a program that the 
whole country is looking at. So what I don't want to do is get 
at cross purposes with my friends at the National Center, so 
I'm going to need your advice.
    If you were able to, any one of you, have a pen up here to 
write the laws, what additional information--I'm not asking you 
now--and sources of information would you be seeking? What 
other areas of expertise would you be trying to bring in to 
deal with this issue and identify the profile of these people 
beyond anecdotal and experiential evidence that you know from 
being in the field? So it's not part of my legislation now, but 
I want to talk about that.
    I'd also like to tell you all, I'd like to talk about, and 
I'm really anxious to talk to my colleague here, how we can 
sort of walk and chew gum at the same time. We can have--for 
example, in our bill there's over a billion dollars over 8 
years, $60 million a year for these ICACs, to expand them.
    But I also think there needs to be a uniquely local 
component as well to be able to have a system whereby, like the 
COPS bill, where the local District Attorney, the local 
Attorney General can make an application based on a set of 
criteria that he or she needs, one or two investigative 
personnel who have been trained, have the money to train them, 
and then have, just like we did in the COPS bill, a standard by 
which they have to report back to main Justice in an office 
that they have investigated X, Y and Z and how they've done it.
    So, we need a protocol. I want to talk to you guys about 
that. That in no way diminishes the pride that the Senator, I, 
and others have in the legislation we're introducing. But I 
think maybe we have to go beyond this as well. I mean, I'm 
anxious to talk to you all about that.
    I'd like to introduce for the record, now, support letters 
for S. 1738 from the National Sheriffs, the National 
Association of Police Organizations, Miami-Dade, International 
Union of Police Associations, Go-Daddy.com, United States 
Internet Service Provider Association, and statements from 
three of our colleagues, both the Senators from California and 
the Senator from Vermont and chairman of the full Committee, 
Senator Leahy, as well as two articles by Woody Kotch of USA 
Today that I think are pretty explanatory for the public at 
large.
    I would conclude by saying that one of the things I was 
impressed with, and I know you are, Senator, but I really am 
impressed with local law enforcement when you give them the 
tools and you give them some help. I was saying to my trainer 
today in my conference room, I said, you know, I can how in 
Delaware, how in Wyoming, and how in Montana, in relatively 
small States where there are not nearly as many dots, that we 
could have the resources to get a handle on it.
    But in the big States like Florida, Pennsylvania, Texas, 
New York, et cetera, it must be so much harder. He said, 
Florida is doing a remarkable job. Florida has--and it's one of 
the things I'm going to want to hold a hearing on as well--
almost totally, locally, breaking down the State in a way that 
their local prosecutors are coordinating with one another, had 
made some really, really significant progress in this area.
    What is Florida, the fourth-largest State in the Union? I 
don't know what it is. I don't want to insult it by making it 
higher or lower than it is. But there's well over 10 million 
people there. So, that is the next piece I want to explore with 
you all. You've been incredibly generous with your time.
    And as my mom--who is probably watching this hearing. She 
watches everything. She's 90 years old and lives with me, and 
as she would say, she's sharp as a tack--would say, you're all 
doing God's work here. This is really, really important stuff. 
To paraphrase old Hubert Humphrey, who I had the honor to serve 
with, he said, the measure of the civility of a society is how 
well they treat the youngest among us and the oldest among us. 
I mean, God, if we can't do better and learn with what is now, 
as you said sir--you can put it up on the screen, you can 
quantify it. You don't need a search warrant. You can quantify 
just how heinous and how frequent and how widespread this is.
    So I thank you all very, very much. I count on your 
willingness to continue to help and educate the Committee, and 
I mean educate it. I mean in the literal sense, it's been an 
education for me today. I promise you we will stay with this.
    With that, again, thank you, particularly those who have 
made the longest travel to get here. Lieutenant, you can ride 
home on the Metro with me.
    [Laughter.]
    Thank you all very much. We are adjourned.
    [Whereupon, at 4:41 p.m. the Committee was adjourned.]
    [Questions and answers and submissions for the record 
follow.]

[GRAPHIC] [TIFF OMITTED] T4986.001

[GRAPHIC] [TIFF OMITTED] T4986.002

[GRAPHIC] [TIFF OMITTED] T4986.003

[GRAPHIC] [TIFF OMITTED] T4986.004

[GRAPHIC] [TIFF OMITTED] T4986.005

[GRAPHIC] [TIFF OMITTED] T4986.006

[GRAPHIC] [TIFF OMITTED] T4986.007

[GRAPHIC] [TIFF OMITTED] T4986.008

[GRAPHIC] [TIFF OMITTED] T4986.009

[GRAPHIC] [TIFF OMITTED] T4986.010

[GRAPHIC] [TIFF OMITTED] T4986.011

[GRAPHIC] [TIFF OMITTED] T4986.012

[GRAPHIC] [TIFF OMITTED] T4986.013

[GRAPHIC] [TIFF OMITTED] T4986.014

[GRAPHIC] [TIFF OMITTED] T4986.015

[GRAPHIC] [TIFF OMITTED] T4986.016

[GRAPHIC] [TIFF OMITTED] T4986.017

[GRAPHIC] [TIFF OMITTED] T4986.018

[GRAPHIC] [TIFF OMITTED] T4986.019

[GRAPHIC] [TIFF OMITTED] T4986.020

[GRAPHIC] [TIFF OMITTED] T4986.021

[GRAPHIC] [TIFF OMITTED] T4986.022

[GRAPHIC] [TIFF OMITTED] T4986.023

[GRAPHIC] [TIFF OMITTED] T4986.024

[GRAPHIC] [TIFF OMITTED] T4986.025

[GRAPHIC] [TIFF OMITTED] T4986.026

[GRAPHIC] [TIFF OMITTED] T4986.027

[GRAPHIC] [TIFF OMITTED] T4986.028

[GRAPHIC] [TIFF OMITTED] T4986.029

[GRAPHIC] [TIFF OMITTED] T4986.030

[GRAPHIC] [TIFF OMITTED] T4986.031

[GRAPHIC] [TIFF OMITTED] T4986.032

[GRAPHIC] [TIFF OMITTED] T4986.033

[GRAPHIC] [TIFF OMITTED] T4986.034

[GRAPHIC] [TIFF OMITTED] T4986.035

[GRAPHIC] [TIFF OMITTED] T4986.036

[GRAPHIC] [TIFF OMITTED] T4986.037

[GRAPHIC] [TIFF OMITTED] T4986.038

[GRAPHIC] [TIFF OMITTED] T4986.039

[GRAPHIC] [TIFF OMITTED] T4986.040

[GRAPHIC] [TIFF OMITTED] T4986.041

[GRAPHIC] [TIFF OMITTED] T4986.042

[GRAPHIC] [TIFF OMITTED] T4986.043

[GRAPHIC] [TIFF OMITTED] T4986.044

[GRAPHIC] [TIFF OMITTED] T4986.045

[GRAPHIC] [TIFF OMITTED] T4986.046

[GRAPHIC] [TIFF OMITTED] T4986.047

[GRAPHIC] [TIFF OMITTED] T4986.048

[GRAPHIC] [TIFF OMITTED] T4986.049

[GRAPHIC] [TIFF OMITTED] T4986.050

[GRAPHIC] [TIFF OMITTED] T4986.051

[GRAPHIC] [TIFF OMITTED] T4986.052

[GRAPHIC] [TIFF OMITTED] T4986.053

[GRAPHIC] [TIFF OMITTED] T4986.054

[GRAPHIC] [TIFF OMITTED] T4986.055

[GRAPHIC] [TIFF OMITTED] T4986.056

[GRAPHIC] [TIFF OMITTED] T4986.057

[GRAPHIC] [TIFF OMITTED] T4986.058

[GRAPHIC] [TIFF OMITTED] T4986.059

[GRAPHIC] [TIFF OMITTED] T4986.060

[GRAPHIC] [TIFF OMITTED] T4986.061

[GRAPHIC] [TIFF OMITTED] T4986.062

[GRAPHIC] [TIFF OMITTED] T4986.063

[GRAPHIC] [TIFF OMITTED] T4986.064

[GRAPHIC] [TIFF OMITTED] T4986.065

[GRAPHIC] [TIFF OMITTED] T4986.066

[GRAPHIC] [TIFF OMITTED] T4986.067

[GRAPHIC] [TIFF OMITTED] T4986.068

[GRAPHIC] [TIFF OMITTED] T4986.069

[GRAPHIC] [TIFF OMITTED] T4986.070

[GRAPHIC] [TIFF OMITTED] T4986.071

[GRAPHIC] [TIFF OMITTED] T4986.072

[GRAPHIC] [TIFF OMITTED] T4986.073

[GRAPHIC] [TIFF OMITTED] T4986.074

[GRAPHIC] [TIFF OMITTED] T4986.075

[GRAPHIC] [TIFF OMITTED] T4986.076

[GRAPHIC] [TIFF OMITTED] T4986.077

[GRAPHIC] [TIFF OMITTED] T4986.078

[GRAPHIC] [TIFF OMITTED] T4986.079

[GRAPHIC] [TIFF OMITTED] T4986.080

[GRAPHIC] [TIFF OMITTED] T4986.081

[GRAPHIC] [TIFF OMITTED] T4986.082

[GRAPHIC] [TIFF OMITTED] T4986.083

[GRAPHIC] [TIFF OMITTED] T4986.084

[GRAPHIC] [TIFF OMITTED] T4986.085

[GRAPHIC] [TIFF OMITTED] T4986.086

[GRAPHIC] [TIFF OMITTED] T4986.087

[GRAPHIC] [TIFF OMITTED] T4986.088

[GRAPHIC] [TIFF OMITTED] T4986.089

[GRAPHIC] [TIFF OMITTED] T4986.090

[GRAPHIC] [TIFF OMITTED] T4986.091

[GRAPHIC] [TIFF OMITTED] T4986.092

[GRAPHIC] [TIFF OMITTED] T4986.093

[GRAPHIC] [TIFF OMITTED] T4986.094

[GRAPHIC] [TIFF OMITTED] T4986.095

[GRAPHIC] [TIFF OMITTED] T4986.096

[GRAPHIC] [TIFF OMITTED] T4986.097

[GRAPHIC] [TIFF OMITTED] T4986.098

[GRAPHIC] [TIFF OMITTED] T4986.099

[GRAPHIC] [TIFF OMITTED] T4986.100

[GRAPHIC] [TIFF OMITTED] T4986.101

[GRAPHIC] [TIFF OMITTED] T4986.102

[GRAPHIC] [TIFF OMITTED] T4986.103

[GRAPHIC] [TIFF OMITTED] T4986.104

[GRAPHIC] [TIFF OMITTED] T4986.105

[GRAPHIC] [TIFF OMITTED] T4986.106

[GRAPHIC] [TIFF OMITTED] T4986.107

[GRAPHIC] [TIFF OMITTED] T4986.108

                                 <all>

</pre></body></html>
